<html>
<title> - COORDINATION OF INTERNATIONAL SCIENCE PARTNERSHIPS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                     COORDINATION OF INTERNATIONAL
                          SCIENCE PARTNERSHIPS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2009

                               __________

                           Serial No. 111-14

                               __________

     Printed for the use of the Committee on Science and Technology




     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-030PS                  WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  nternet: bookstore.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC,
Washington, DC 20402-0001













                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BRIAN P. BILBRAY, California
PAUL D. TONKO, New York              ADRIAN SMITH, Nebraska
PARKER GRIFFITH, Alabama                 
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant

















                            C O N T E N T S

                             March 24, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chair, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses:

Dr. Jon C. Strauss, President, Bainbridge Graduate Institute; 
  Member, National Science Board; Chairman, National Science 
  Board Task Force on International Science
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    14

Dr. Norman P. Neureiter, Director, Center for Science, Technology 
  and Security Policy; Senior Advisor, Center for Science 
  Diplomacy, American Association for the Advancement of Science
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    19

Mr. Anthony F. ``Bud'' Rock, Vice President for Global 
  Engagement, Arizona State University
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    27

Discussion.......................................................    27

              Appendix: Additional Material for the Record

Statement of Dr. Gerald J. Hane, Managing Director, Q-Paradigm...    42
    Biography....................................................    54

 
           COORDINATION OF INTERNATIONAL SCIENCE PARTNERSHIPS

                              ----------                              


                        TUESDAY, MARCH 24, 2009

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:20 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chair of the Subcommittee] presiding.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Coordination of International

                          Science Partnerships

                        tuesday, march 24, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The purpose of this hearing is to receive testimony on draft 
legislation to recreate a committee under the National Science and 
Technology Council for the coordination and planning of international 
science and technology activities and partnerships between and among 
federal research agencies and the Department of State.

2. Witnesses:

        <bullet>  Dr. Jon C. Strauss, Chairman of the National Science 
        Board Task Force on International Science, which produced the 
        2008 report, ``International Science and Engineering 
        Partnerships: A Priority for U.S. Foreign Policy and Our 
        Nation's Innovation Enterprise.''

        <bullet>  Dr. Norman P. Neureiter, Director of the Center for 
        Science, Technology and Security Policy, American Association 
        for the Advancement of Science.

        <bullet>  Mr. Anthony ``Bud'' Rock, Vice President for Global 
        Engagement at Arizona State University.

        <bullet>  Dr. Gerald Hane, Managing Director, Q-Paradigm.

3. Overarching Questions:

        <bullet>  What are the respective roles of the Department of 
        State and the science agencies, such as the National Science 
        Foundation, the Department of Energy and the National 
        Institutes of Health, in international science and technology 
        (S&T) cooperation? What is the role of the Office of Science 
        and Technology Policy (OSTP) in fostering international S&T 
        cooperation and in coordinating federal activities?

        <bullet>  If OSTP reconstituted a Committee on International 
        Science, Engineering and Technology (CISET) under the National 
        Science and Technology Council (NSTC), what should be the 
        unique role and responsibilities of that committee? What 
        lessons can be learned from the previous CISET of the 1990's? 
        Does the draft legislation being considered appropriately 
        describe the purpose and responsibilities of an effective 
        CISET?

        <bullet>  Can CISET serve an important function absent 
        additional funding for S&T cooperation? Does creation of CISET 
        ensure active participation and support from the science 
        agencies and from the Department of State? If not, what other 
        steps must be taken to make CISET an effective coordinating 
        body? Are any of those steps legislative?

        <bullet>  How else might OSTP and/or the science agencies play 
        a greater role in bringing science and technology to bear on 
        foreign policy?

4. Overview

    Science and technology were closely tied to American diplomacy in 
the early years after the founding of the United States. In fact, the 
first Secretary of State, Thomas Jefferson, was also designated the 
administrator of the Nation's first patent law, and the first efforts 
to establish a bureau of weights and measures were also associated with 
the Department of State. By the 1830's, this close relationship between 
diplomats and scientists seems to have diminished. It was not until 
World War II that science and technology once again began to play a 
prominent role in the State Department. Nevertheless, the U.S. 
continued to engage in international S&T cooperation for other 
purposes. For example, the first International Polar Year, a 
coordinated international effort to collect and analyze data about the 
polar regions, occurred in 1882-83. We just completed the third 
International Polar Year.
    There are a number of reasons why the United States has and will 
continue to engage in international S&T cooperation, including:

        <bullet>  to strengthen U.S. science and engineering by 
        providing our own researchers access to the best researchers 
        and research sites around the world;

        <bullet>  to enable construction of and participation in 
        prohibitively expensive world-class research facilities (either 
        on U.S. soil or foreign sites) by partnering with foreign 
        countries to leverage their funds and scientific talent;

        <bullet>  to address U.S. interests in global matters, such as 
        nonproliferation, water resources, climate change and 
        infectious diseases, in part by ensuring that foreign and 
        international (e.g., U.N.) decision-makers have access to the 
        best science;

        <bullet>  to help build technological capacity and address 
        health and resource crises in other countries in order to help 
        maintain U.S. national security and economic interests; and

        <bullet>  to help build more positive relationships with other 
        countries - what is often called ``science diplomacy.''

    In addition to the Department of State and the U.S. Agency for 
International Development (USAID), every federal agency that either 
does its own research or funds academic research (or in most cases, 
both) supports international S&T cooperation, including Departments of 
Agriculture, Defense, Energy, Commerce (includes NIST and NOAA), and 
Health and Human Services (includes NIH) as well as NASA, the 
Environmental Protection Agency, and the National Science Foundation 
(NSF). The Office of Science and Technology Policy advises the 
President on matters of science and technology as they relate to 
international issues, and provides intellectual support to the 
Department of State and USAID on S&T matters. State and USAID also turn 
to NSF and the mission agencies for intellectual input on S&T-related 
issues that fall within those agencies' areas of expertise, such as 
health, energy or water. The mission agencies, on the other hand, turn 
to the Department of State for assistance in negotiating formal 
agreements with other nations. For a more detailed description of the 
respective roles of State, NSF and the mission agencies, see the 
charter from our April 2, 2008 hearing.\1\
---------------------------------------------------------------------------
    \1\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2134
---------------------------------------------------------------------------
    The National Science Board (NSB) recently issued a report, 
``International Science and Engineering Partnerships: A Priority for 
U.S. Foreign Policy and Our Nation's Innovation Agenda,'' \2\ in which 
the Board makes a series of recommendations for increased coherence and 
coordination of federally sponsored international science and 
engineering activities.
---------------------------------------------------------------------------
    \2\ http://www.nsf.gov/nsb/publications/2008/nsb084.pdf

5.  Role of the Office of Science and Technology Policy and the 
                    National Science and Technology Council in 
                    Coordination of International S&T partnerships

    The Director of OSTP is, by statute, the President's adviser on 
science and technology matters for all areas of national concern, 
including foreign relations and national security, as well as for 
``emerging international problems amenable to the contributions of 
science and technology.''
    The OSTP Director, through NSTC, is also responsible for 
interagency coordination of federal research and development programs, 
which includes programs, such as the International Polar Year, that are 
part of an international partnership. But OSTP does not have an 
explicit mandate for coordination of all international activities, nor 
does the office have any program budget or management responsibilities 
of its own.
    The NSB report mentioned previously calls on OSTP to take a more 
active and prominent role both in setting federal priorities for 
international science and engineering cooperation and in coordinating 
efforts across agencies. For example, the Board recommends that OSTP 
``should directly charge federal agencies to include specific 
components of international R&D in their integrated programs'' and 
urges NSTC to reestablish a Committee on International Science, 
Engineering and Technology (CISET). Such a Committee existed in the 
1990's under the Clinton Administration. Two of today's witnesses sat 
directly on that Committee, one from the State Department (Bud Rock) 
and the other from OSTP (Gerald Hane). The 1998 Annual Report about 
NSTC contained the following description of CISET:

    The Committee on International Science, Engineering, and Technology 
(CISET) addresses international scientific cooperation as it relates to 
foreign policy and the Nation's R&D agenda. CISET's mandate is not 
defined within any particular area of S&T. Rather, CISET's role is to 
review the wide range of bilateral and multilateral international 
scientific programs carried out by the technical agencies in the U.S. 
Government, and to identify opportunities for international cooperation 
and interagency coordination in response to new needs and 
opportunities. CISET's activities are directed toward three broad, 
complementary goals to:

         Identify, and coordinate international cooperation that can 
        strengthen the domestic S&T enterprise and promote U.S. 
        economic competitiveness and national security;

         Utilize American leadership in S&T to address global issues 
        and to support the post-Cold War tenets of U.S. foreign 
        policy--promoting democracy, maintaining peace, and fostering 
        economic growth and sustainable development; and

         Coordinate the international aspects of federal R&D funding 
        across federal agencies.

    CISET supported the following five working groups during 1998: the 
Emerging Infectious Diseases Task Force; the Interagency Working Group 
on Russia; the Interagency Working Group on the Organization for 
Economic Cooperation and Development (OECD); the Interagency Working 
Group on Japan; and the Interagency Working Group on China. CISET also 
operates a number of ad hoc working groups to address issues as they 
arise, such as APEC and the Summit of the Americas.

    The Bush Administration OSTP disbanded CISET in 2001. Dr. Marburger 
explained in his testimony before the Research and Science Education 
Subcommittee last year his approach to coordinating international STEM 
partnerships:

         During the past six years, OSTP has experimented with various 
        arrangements for coordinating agency international science and 
        technology programs. The most successful approach has been one 
        that draws together agencies in meetings focused on specific 
        science topics such as nanotechnology or genomics, or on 
        specific countries such as China or Brazil. The former meetings 
        occur naturally in the NSTC context, the latter occur on the 
        schedule of high-level bilateral commission meetings to review 
        progress under the S&T agreements.

    But many other experts, including witnesses at today's hearing, 
argue that significant opportunities are missed by this ad hoc approach 
to international S&T cooperation, especially opportunities at the 
intersection of science and diplomacy.

6. The International STEM Cooperation Act of 2009

    The draft legislation being considered today would recreate a 
Committee on International Science, Engineering and Technology under 
NSTC. It would assign five key responsibilities to CISET:

        <bullet>  coordinate international S&T research and education 
        activities and partnerships across the federal agencies (which 
        includes of course the technical agencies, but may also include 
        regulatory and other agencies that work internationally on 
        issues with an S&T component).

        <bullet>  Establish priorities and policies for aligning, as 
        appropriate, international S&T partnerships with the foreign 
        policy goals of the United States.

        <bullet>  Identify opportunities for new international S&T 
        partnerships that advance both the S&T mission of the technical 
        agencies involved and the public diplomacy, national security 
        or other foreign policy mission of the Department of State.

        <bullet>  Work with foreign governments (in coordination with 
        the Department of State) to establish and maintain S&T 
        partnerships.

        <bullet>  Maintain an inventory of international S&T activities 
        funded by the U.S. government for purposes of information 
        sharing between federal agencies and other stakeholders in the 
        U.S. S&T enterprise.

7. Questions for Witnesses:

Dr. Strauss

        <bullet>  Does the draft legislation being considered 
        appropriately describe the purpose and responsibilities of an 
        effective CISET as imagined by the NSB Task Force on 
        International Science?

        <bullet>  Can CISET serve an important function absent 
        additional funding for S&T cooperation? Does creation of CISET 
        ensure active participation and support from the science 
        agencies and from the Department of State? If not, what other 
        steps must be taken to make CISET an effective coordinating 
        body?

        <bullet>  What additional recommendations did the NSB task 
        force make regarding the roles of the Office and Science and 
        Technology Policy and the science agencies in bringing their 
        science and technology expertise to bear on foreign policy?

Dr. Neureiter, Mr. Rock and Dr. Hane
    Similarly, all three of these witnesses were asked a slight 
variation of the overarching questions, tailored to their personal 
experiences within the Department of State or the Office of Science and 
Technology Policy.
    Chair Lipinski. This hearing will come to order. Good 
afternoon. Welcome to this Research and Science Education 
Subcommittee hearing on Coordination of International Science 
Partnerships. Last year the Subcommittee, then led by Dr. 
Baird, held two hearings on the topic of international science 
and technology cooperation, one on the role of federal 
agencies, including the Office of Science and Technology 
Policy, and the second on the role of non-governmental 
organizations, including universities. Dr. Baird, Dr. Ehlers 
and Mr. Carnahan also hosted a roundtable here in the committee 
room and participated in a workshop hosted by the American 
Association for the Advancement of Science.
    I want to thank Dr. Baird for making international 
cooperation a priority for the Subcommittee. I concur with him 
that the new Administration gives us a tremendous opportunity 
and a fresh outlook for both science and foreign policy. We 
have a chance to take advantage of our preeminence in science 
and technology to strengthen diplomatic ties, help ensure that 
decision-makers around the world have access to the best 
scientific advice, and leverage other countries' resources to 
tackle common challenges in energy, climate, water resources 
and health.
    While the hearings last year included broad conversations 
about the value and importance of science and technology 
cooperation to our economic and national security, today we 
will focus on the practical mechanisms for coordinating such 
activities across the Federal Government, including between the 
technical agencies and the State Department. In particular, we 
are going to examine a legislative proposal that would create a 
committee to coordinate U.S. participation in international S&T 
partnerships and identify partnerships at the intersection of 
our nation's S&T and foreign policy missions.
    In the 1990's, there was such a committee, known as the 
Committee on International Science, Engineering and Technology, 
or CISET. CISET existed within the National Science and 
Technology Council, which is managed by OSTP and is the main 
interagency coordinating body for federal R&D activities. CISET 
had three main goals. First, it was tasked to identify and 
coordinate international cooperation that could strengthen the 
domestic S&T enterprise and promote U.S. economic 
competitiveness and national security. Second, CISET also 
helped utilize American leadership in S&T to address global 
issues and to support the post-Cold War tenets of U.S. foreign 
policy--promoting democracy, maintaining peace, and fostering 
economic growth and sustainable development.
    Finally, CISET helped coordinate the international aspects 
of federal R&D funding across federal agencies.
    President Bush's OSTP Director chose to disband CISET in 
favor of a distributed approach to coordination of 
international activities, either subsumed within issue-area 
committees under NSTC or convened in response to a call from 
the State Department to work with a specific country. But such 
an ad hoc, distributed approach almost certainly missed 
opportunities for the State Department and technical agencies 
to identify and engage in partnerships of mutual interest.
    I am very happy that the new OSTP Director, Dr. Holdren, 
has indicated his intention to appoint an Associate Director 
for National Security and International Affairs at OSTP, a 
position which his predecessor dismissed as unnecessary. But 
the legislation we are discussing today would also ask Dr. 
Holdren to go a step further in asserting a leadership role for 
OSTP in international S&T cooperation by reconstituting a 
Committee on International Science, Engineering and Technology 
under NSTC.
    The witnesses before us to today have extensive expertise 
and personal experience with interagency coordination for 
international S&T, and I look forward to their comments on our 
legislative proposal. In particular, we want to make sure that 
CISET has a unique purpose and role relative to subject area 
committees within NSTC, that it effectively engages both the 
technical agencies and the Department of State, and that it can 
serve an important function even without new money for 
international partnerships.
    I want to thank all of the witnesses for taking the time to 
appear before the Committee this afternoon and I look forward 
to your testimony.
    [The prepared statement of Chair Lipinski follows:]
              Prepared Statement of Chair Daniel Lipinski
    Good afternoon. Welcome to this Research and Science Education 
Subcommittee hearing on Coordination of International Science 
Partnerships. Last year this subcommittee, then led by Dr. Baird, held 
two hearings on the topic of international science and technology 
cooperation: one on the role of federal agencies, including the Office 
of Science and Technology Policy; and the second on the role of non-
governmental organizations, including universities. Dr. Baird, Dr. 
Ehlers and Mr. Carnahan also hosted a roundtable here in the Committee 
Room and participated in a workshop hosted by the American Association 
for the Advancement of Science.
    I want to thank Dr. Baird for making international cooperation a 
priority for the Subcommittee. I concur with him that the new 
Administration gives us a tremendous opportunity and a fresh outlook 
for both science and foreign policy. We have a chance to take advantage 
of our preeminence in science and technology to strengthen diplomatic 
ties, help ensure that decision-makers around the world have access to 
the best scientific advice, and leverage other country's resources to 
tackle common challenges in energy, climate, water resources and 
health.
    While the hearings last year included broad conversations about the 
value and importance of science and technology cooperation to our 
economic and national security, today we will focus on the practical 
mechanisms for coordinating such activities across the Federal 
Government, including between the technical agencies and the State 
Department. In particular, we are going to examine a legislative 
proposal that would create a committee to coordinate U.S. participation 
in international S&T partnerships and identify partnerships at the 
intersection of our nation's S&T and foreign policy missions.
    In the 1990's, there was such a committee, known as the Committee 
on International Science, Engineering and Technology, or CISET. CISET 
existed within the National Science and Technology Council, which is 
managed by OSTP and is the main interagency coordinating body for 
federal R&D activities. CISET had three main goals:

        <bullet>  It was tasked to identify and coordinate 
        international cooperation that could strengthen the domestic 
        S&T enterprise and promote U.S. economic competitiveness and 
        national security.

        <bullet>  CISET also helped utilize American leadership in S&T 
        to address global issues and to support the post-Cold War 
        tenets of U.S. foreign policy--promoting democracy, maintaining 
        peace, and fostering economic growth and sustainable 
        development.

        <bullet>  Finally, CISET helped coordinate the international 
        aspects of federal R&D funding across federal agencies.

    President Bush's OSTP Director chose to disband CISET in favor of a 
distributed approach to coordination of international activities, 
either subsumed within issue-area committees under NSTC or convened in 
response to a call from the State Department to work with a specific 
country. But such an ad hoc, distributed approach almost certainly 
missed opportunities for the State Department and technical agencies to 
identify and engage in partnerships of mutual interest.
    I am very happy that the new OSTP Director, Dr. Holdren, has 
indicated his intention to appoint an Associate Director for National 
Security and International Affairs at OSTP, a position which his 
predecessor dismissed as unnecessary. But the legislation we are 
considering today would also ask Dr. Holdren to go a step further in 
asserting a leadership role for OSTP in international S&T cooperation 
by reconstituting a Committee on International Science, Engineering and 
Technology under NSTC.
    The witnesses before us to today have extensive expertise and 
personal experience with interagency coordination for international 
S&T, and I look forward to their comments on our legislative proposal. 
In particular, we want to make sure that CISET has a unique purpose and 
role relative to subject area committees within NSTC, that it 
effectively engages both the technical agencies and the Department of 
State, and that it can serve an important function even without new 
money for international partnerships. I want to thank all of the 
witnesses for taking the time to appear before the Committee this 
afternoon and I look forward to your testimony.

    Chair Lipinski. The Chair now recognizes Dr. Ehlers for an 
opening statement.
    Mr. Ehlers. Thank you, Mr. Chair, for holding this hearing. 
It is a very important topic. As a scientist, I have been a 
very strong supporter of international cooperation in science 
and, if I may call it that, diplomacy or foreign affairs for 
many, many years. In fact, when I got my Ph.D., I proceeded to 
spend a year in Europe studying and getting to know the culture 
and the science there. I was also a very strong supporter at 
the very early stages of cooperation with the Soviet Union, and 
as we all know by now, that was one of the key factors in 
breaking open the doors of the Soviet Union not only to 
scientists but to many others. You can imagine my surprise when 
I came to the Congress and was asked to write a science policy 
statement in which I intended to include issues related to this 
and discovered that the State Department no longer even had 
anyone in the realm of science within their walls. And 
fortunately, Dr. Neureiter was willing to step into the breach 
there as I put some pressure on them, and that was a start of 
greater things, and I appreciate you being here, Dr. Neureiter, 
and thank you also for what you did at that time.
    Identifying and coordinating activities within the Federal 
Government which mutually benefit our scientific enterprise and 
our foreign policy goals is a valuable mission, and therefore I 
very strongly support the goals of this legislation. I know all 
of our witnesses seek to inform this committee regarding the 
most efficient way to achieve these common goals, and I greatly 
appreciate their expertise and their reflection on this topic.
    In the last Congress, this subcommittee held a series of 
three hearings on issues related to science and diplomacy from 
the esoteric to the mundane, which is how do we get visas for 
foreign scientists and how do we work with the State Department 
to accomplish these goals, especially given the new 
restrictions after 9/11. We have only seen glimpses of the 
power behind leveraging these two communities because the 
commitment to do so has not been sustained, focused, or well-
organized. Individual scientists who have partnered with peers 
in other nations would unequivocally assure you that such 
partnerships have been good for U.S. science, despite the fact 
that their motivation for such a partnership was probably 
purely based on discovery.
    I look forward to learning from our witnesses today about 
the proposal before us and how we could make it stronger, and I 
certainly thank you for your attendance.
    Let me add just one more personal note. My son is a 
geophysicist and was at the University of Michigan teaching and 
doing research. He discovered a German counterpart who was 
interested in very similar experiments, and they immediately 
developed ideas for a cooperative relationship. The German 
government was very cooperative and provided funding for them 
to work together, and my son was unable to get a research grant 
in the United States for the same purpose. Ironically, he has 
now accepted a position at a university in Germany. So reverse 
brain drain, or maybe real brain drain, but certainly a loss of 
contact with my son.
    So it is clear we have a ways to go in the United States, 
and I hope we will be able to resolve these problems. Thank you 
very much. I yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Identifying and coordinating activities within the Federal 
Government which mutually benefit our scientific enterprise and our 
foreign policy goals is a valuable mission, and therefore I support the 
goals of the draft legislation before us today. I know that all of our 
witnesses seek to inform this committee regarding the most efficient 
way to achieve these common goals, and I greatly appreciate their 
expertise and reflection on this topic.
    In the last Congress, this subcommittee held a series of three 
hearings on issues related to science and diplomacy. We have only seen 
glimpses of the power behind leveraging these two communities because 
the commitment to do so has not been sustained, focused, or well-
organized. Individual scientists who have partnered with peers in other 
nations would unequivocally assure you that such partnerships have been 
good for U.S. science, despite the fact that their motivation for such 
a partnership was probably purely based on discovery.
    I look forward to learning from our witnesses today about the 
proposal before us and how we could make it stronger. Thank you for 
your attendance.

    Chair Lipinski. Thank you, Dr. Ehlers. As usual, you have a 
tremendous amount of knowledge and experience to add here at 
this hearing today.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witnesses. Dr. 
Jon C. Strauss is the Chair of the National Science Board Task 
Force on International Science which produced the 2008 report, 
International Science and Engineering Partnerships: A Priority 
for U.S. Foreign Policy and Our Nation's Innovation Enterprise. 
Dr. Norman P. Neureiter is the Director for the Center for 
Science, Technology and Security Policy at the American 
Association for the Advancement of Science. Mr. Anthony ``Bud'' 
Rock is the Vice President for Global Engagement at Arizona 
State University. We had a fourth witness, Dr. Gerald Hane, the 
Managing Director of Q-Paradigm, but unfortunately, he is not 
able to make it here this afternoon. He apparently is stuck in 
Tokyo because of the unfortunate plane crash there yesterday, 
so he is not able to join us, but Dr. Hane's testimony will be 
submitted for the record [see Appendix: Additional Material for 
the Record], and Members will have the opportunity to follow up 
with written questions.
    As our witnesses should know, you each have five minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When all of you have 
completed your spoken testimony, we will begin with questions. 
Each Member will have five minutes to question the panel.
    So with our witnesses, we will start with Dr. Strauss.

STATEMENT OF DR. JON C. STRAUSS, PRESIDENT, BAINBRIDGE GRADUATE 
 INSTITUTE; MEMBER, NATIONAL SCIENCE BOARD; CHAIRMAN, NATIONAL 
       SCIENCE BOARD TASK FORCE ON INTERNATIONAL SCIENCE

    Dr. Strauss. Chair Lipinski, Ranking Member Ehlers, and 
Members of the Subcommittee, I appreciate the opportunity to 
speak with you today. My name is Jon Strauss, and I am 
President of the Bainbridge Graduate Institute in the State of 
Washington. I am also a member of the National Science Board 
and appear before you today in my role as Chair of the Board's 
former Task Force on International Science. Thank you for this 
opportunity to testify on the important topic of science 
diplomacy.
    The Board Task Force on International Science, established 
in September 2005, broadly examined international science and 
engineering partnerships. The resulting report, International 
Science and Engineering Partnerships: A Priority for U.S. 
Foreign Policy and Our Nation's Innovation Enterprise, offers a 
series of recommendations on supporting international science 
and engineering partnerships as a tool to strengthen efforts in 
international diplomacy. The Task Force recommendations were 
developed after extensive formal and informal discussions with 
scientists and engineers from around the world.
    Over the last few years, international coordination among 
federal entities has been conducted primarily on an ad hoc 
basis. One of the key recommendations in the Board's report is 
the re-establishment of the National Science and Technology 
Council, NSTC, Committee on International Science, Engineering, 
and Technology, CISET. The Board believes a reconstituted CISET 
would serve to coordinate the activities of the various federal 
science agencies and ensure a coherent, integrated, and strong 
U.S. international science strategy.
    An example of creating collaborations across borders and 
organizational boundaries comes from the Partnerships for 
International Research and Education, PIRE, program in the 
NSF's Office of International Science and Engineering. While 
PIRE coordinates international research efforts across the 
entire spectrum of the NSF disciplines, similar activities 
could readily be coordinated and leveraged across the federal 
government through the NSTC CISET committee.
    The global nature of many long-standing science challenges, 
such as epidemics, natural disasters, and the search for 
alternative energy sources, makes it critical for scientists 
and engineers from around the world to collaborate in 
addressing issues that cross geographic and national 
boundaries. Successful international science partnerships are 
critical to overcoming such global challenges. Science 
diplomacy can advance international relations and U.S. foreign 
policy efforts around the world. Science and engineering, with 
its common language, methods, and values, has helped to 
initiate and to reinforce positive relations between peoples 
and nations with historic and deep-seated enmities. These 
partnerships contribute to building more stable relations among 
communities and nations based on commonly accepted scientific 
values of objectivity, sharing, integrity, and free inquiry. 
For science diplomacy to succeed, it is critical that the 
Federal Government expand efforts to coordinate science and 
engineering activities across all federal agencies through a 
reconstituted CISET.
    Improving the national capabilities of developing countries 
stands to benefit all participants and advance U.S. diplomacy. 
NSF has recently signed a Memorandum of Understanding with the 
U.S. Agency for International Development to coordinate broadly 
scoped research and higher education initiatives in which NSF 
supports U.S. researchers and USAID supports science and 
engineering capacity building in developing countries. Efforts 
between individual agencies such as this MOU would be greatly 
strengthened through an overall coordinating committee.
    Since 1950 when President Truman convened the first meeting 
of the National Science Board, the Board has worked to fulfill 
our mission to the Nation: ``To promote the progress of 
science; to advance the national health, prosperity, and 
welfare; to secure the national defense.'' The President has 
clearly demonstrated his commitment to science and spoken of 
the importance of science in domestic and international policy.
    On behalf of the National Science Board and our Chair, Dr. 
Steven Beering, I want to thank the Subcommittee for its 
support regarding our policy recommendations and for the 
important work it does for U.S. scientific research, education, 
and training.
    Mr. Chair, that concludes my formal remarks.
    [The prepared statement of Dr. Strauss follows:]
                  Prepared Statement of Jon C. Strauss
    Chairman Lipinski, Ranking Member Ehlers, and Members of the 
Subcommittee, I appreciate the opportunity to speak with you today. My 
name is Jon Strauss, and I am President of the Bainbridge Graduate 
Institute in the State of Washington. I am also a member of the 
National Science Board\1\ and appear before you today in my role as 
Chairman of the Board's former Task Force on International Science. 
Thank you for the opportunity to testify on the important topic of 
science diplomacy.
---------------------------------------------------------------------------
    \1\ The National Science Board (Board) is composed of 25 
presidentially appointed, Senate-confirmed Members, including the 
Director of the National Science Foundation (NSF). The Board provides 
oversight for, and establishes the policies of, NSF. In this capacity, 
the Board identifies issues that are critical to NSF's future, approves 
NSF's strategic budget directions, approves annual budget submissions 
to the Office of Management and Budget, approves new programs and major 
awards, analyzes NSF's budget to ensure progress and consistency along 
the strategic direction set for NSF, and ensures balance between 
initiatives and core programs. The Board also has a broad policy 
advisory role to the President and Congress under the statutory 
obligation to ``. . . render to the President and the Congress reports 
on specific, individual policy matters related to science and 
engineering and education in science and engineering, as the Board, the 
President, or the Congress determines the need for such reports.'' 
National Science Foundation Act of 1950  4(j)(2), 42 U.S.C.  
1863(j)(2) (2007).
---------------------------------------------------------------------------
    The Board Task Force on International Science, established in 
September 2005, broadly examined international science and engineering 
partnerships. The resulting report, International Science and 
Engineering Partnerships: A Priority for U.S. Foreign Policy and Our 
Nation's Innovation Enterprise,\2\ offers a series of recommendations 
on supporting international science and engineering partnerships as a 
tool to strengthen efforts in international diplomacy. The Task Force 
recommendations were developed after extensive formal and informal 
discussions with scientists and engineers from around the world. These 
discussions provided valuable insight into the intricate workings of 
international partnerships in relation to science and engineering 
initiatives.
---------------------------------------------------------------------------
    \2\ International Science and Engineering Partnerships: A Priority 
for U.S. Foreign Policy and Our Nation's Innovation Enterprise (NSB-08-
04) (February 14, 2008).
---------------------------------------------------------------------------
    Over the last few years, international coordination among federal 
entities has been conducted primarily on an ad hoc basis. One of the 
key recommendations in the Board's report is the re-establishment of 
the National Science and Technology Council (NSTC) Committee on 
International Science, Engineering, and Technology (CISET). In the 
Board's judgment, a reconstituted CISET would serve to coordinate the 
activities of the various federal science agencies and ensure a 
coherent, integrated, and strong U.S. international science strategy. 
Re-establishing such a committee would also advance national economic, 
security, and sustainability goals and provide a formal mechanism for 
interagency international policy review, planning, and coordination. An 
example of creating collaborations across borders and organizational 
boundaries comes from the Partnerships for International Research and 
Education (PIRE) program. PIRE, in NSF's Office of International 
Science and Engineering, supports U.S. scientists and engineers, and 
their institutions, to engage in innovative research and education 
projects in partnership with international colleagues. While PIRE 
coordinates international research efforts across the entire spectrum 
of NSF disciplines, similar activities could readily be coordinated and 
leveraged across the Federal Government through the NSTC CISET 
committee.
    The global nature of many long-standing science challenges, such as 
epidemics, natural disasters, and the search for alternative energy 
sources, makes it critical for scientists and engineers from around the 
world to collaborate in addressing issues that cross geographic and 
national boundaries. Successful international science partnerships are 
critical to overcoming global challenges. These partnerships are also 
essential for ensuring that our economy remains competitive, our 
national security remains sound, and our valuable resources are 
effectively and efficiently used.
    Science diplomacy can advance international relations and U.S. 
foreign policy efforts around the world. Science and engineering--with 
its common language, methods, and values--has helped to initiate and to 
reinforce positive relations between peoples and nations with historic 
and deep-seated enmities. These partnerships can create connections 
among people to build trust and communication, which will then 
facilitate future diplomatic endeavors. They also contribute to 
building more stable relations among communities and nations based on 
commonly accepted scientific values of objectivity, sharing, integrity, 
and free inquiry. For science diplomacy to succeed, it is critical that 
the Federal Government expand efforts to coordinate science and 
engineering activities across all research agencies. Again, a 
reconstituted CISET would help to ensure a coherent and integrated U.S. 
international science and engineering strategy.
    Improving the national capabilities of developing countries stands 
to benefit all participants and advance U.S. diplomacy. Engaging in 
science diplomacy and international science and engineering (S&E) 
partnerships will also foster the development of indigenous science and 
engineering capacity in developing countries, enabling them to become 
full participants in the global enterprise. Science and engineering 
partnerships among, and led by, developing countries are equally 
important in capacity building. Strengthening scientific capacity and 
promoting the free flow of information in developing countries will not 
only expand their S&E enterprises, but will help those countries attain 
a higher quality of life. NSF has recently signed a Memorandum of 
Understanding with the U.S. Agency for International Development which 
is intended to coordinate broadly scoped research and higher education 
initiatives in which NSF supports U.S. researchers and USAID supports 
S&E capacity building in developing countries. Efforts between 
individual agencies such as this MOU would be greatly strengthened 
through an overall coordinating committee.
    The National Science Board, as always, appreciates the support of 
the subcommittee regarding our policy recommendations. It was President 
Clinton who established by Executive Order the National Science and 
Technology Council with the Office of Science and Technology Policy 
(OSTP) taking leadership of the structure and organization of the NSTC. 
The Board in our report recommended ``The National Science and 
Technology Council (NSTC) should reestablish a committee on 
international S&E to coordinate the activities of the . . . various 
federal mission agencies . . ..'' We stand by that recommendation to 
have the NSTC, under the leadership of OSTP, make the necessary changes 
in the structure.

Closing Remarks

    Reconstituting a NSTC committee on International Science, 
Engineering, and Technology is vital to coordinate successful 
international science and engineering partnerships as necessary tools 
to address global challenges, to advance S&E frontiers, to build U.S. 
S&E capacity and expertise, to energize U.S. innovation, to support 
international relations, and to foster capacity building in developing 
countries. U.S. leadership and participation in international science 
and engineering partnerships is truly a key catalyst for global 
prosperity.
    Since 1950 when President Truman convened the first meeting of the 
National Science Board, the Board has worked to fulfill our mission to 
the nation: ``To promote the progress of science; to advance the 
national health, prosperity, and welfare; to secure the national 
defense.'' The President has clearly demonstrated his commitment to 
science and spoken of the importance of science in domestic and 
international policy.
    On behalf of the National Science Board and our Chairman, Dr. 
Steven Beering, I want to thank the Subcommittee for the important work 
it does for U.S. scientific research, education, and training.
    Mr. Chairman, this concludes my remarks.

                      Biography for Jon C. Strauss

B.S.E.E., University of Wisconsin, 1959

    M.S., Physics, University of Pittsburgh, 1962

Ph.D., Systems and Communication Sciences, Carnegie Institute of 
Technology, 1965

    Dr. Strauss is President Emeritus of Harvey Mudd College, a highly-
ranked liberal arts college of engineering, science, and mathematics, 
where he served as its fourth President from 1997 until 2006. 
Previously, he served as Vice President and Chief Financial Officer at 
Howard Hughes Medical Institute in Chevy Chase, Maryland. He is also 
President Emeritus of Worcester Polytechnic Institute in Massachusetts, 
and he served as Senior Vice President of Administration at the 
University of Southern California where he also was a tenured Professor 
of Electrical Engineering. He was Vice President for Budget and Finance 
at the University of Pennsylvania in Philadelphia, and also served as a 
Professor of Computer Science at that institution and at Washington 
University in St. Louis, the Technical University of Norway, and 
Carnegie Mellon University in Pittsburgh. Dr. Strauss has published and 
spoken widely, consulted for a wide variety of colleges, universities, 
and corporations, and served on the Boards of a number of corporations 
and professional and community organizations.
    Strauss' professional interests include organizational development 
and planning, modeling and performance enhancement, and sustainability 
and decentralized management in higher education.
    He was appointed to the National Science Board in 2004 where he has 
led two important task forces on international science and sustainable 
energy and chairs the Subcommittee on Polar Issues.
    Dr. Strauss lives on Bainbridge Island, Washington with his wife 
Jean, an award winning author, documentarian, open adoption records 
activist, and competitive rower. They have two sons: Kristoffer, a 
senior at Yale, and Jonathon, a junior at Penn. Dr. Strauss also has 
two daughters, Susan and Stephanie, from a previous marriage.

    Chair Lipinski. Thank you, Dr. Strauss. Now I recognize Dr. 
Neureiter for five minutes.

  STATEMENT OF DR. NORMAN P. NEUREITER, DIRECTOR, CENTER FOR 
SCIENCE, TECHNOLOGY AND SECURITY POLICY; SENIOR ADVISOR, CENTER 
FOR SCIENCE DIPLOMACY, AMERICAN ASSOCIATION FOR THE ADVANCEMENT 
                           OF SCIENCE

    Dr. Neureiter. Chair Lipinski, Dr. Ehlers, Members of the 
Subcommittee, thank you very much for inviting me.
    As an unabashed zealot for the value of international S&T 
cooperation, both to science and to foreign policy, I commend 
you for this hearing, and I applaud the interest of this 
subcommittee on this topic.
    In some 45 years of working in international science and 
business I have seen how international S&T cooperation can be a 
very effective instrument of non-political soft power 
engagement and a key element of a constructive foreign policy. 
At AAAS we call this science diplomacy in action. Furthermore, 
solving present global challenges such as climate change, 
energy, health, food, clean water, and so on demand both the 
application of S&T and cooperation among many nations to do the 
necessary research. This cooperation is a double winner. It 
solves problems, and it builds relationships.
    However, present mechanisms for U.S. response to these 
opportunities and challenges are in my view inadequate. In the 
new structure of the National Security Council, OSTP, and the 
State Department, CISET can mitigate these shortcomings. I 
support your proposal to reestablish CISET through legislation 
as the government's focal point for international S&T. This 
bill will send a powerful message to the agencies about 
Congressional interest in this subject. The proposed reporting 
mechanism will maintain an important record of progress.
    It is critical that OSTP be fully integrated into the NSC 
process of foreign policy decision-making with close ties to 
the science units of the State Department, the OES bureaus, and 
the Science Advisor.
    CISET must also have top quality staffing from the NSTC and 
authoritative membership from all of the federal agencies 
involved. I do, however, caution against an international 
negotiating role for CISET, and I distinguish between its 
proper role of setting technical priorities while deferring to 
State and the NFC on political or country priorities.
    Once priorities are set and agency players identified, 
planning the projects and negotiating with the foreign partners 
must be left to the agencies with appropriate State Department 
guidance.
    Now, one other word of caution. I urge the Subcommittee to 
make its intentions absolutely clear, namely that the role of 
CISET is to foster mutually beneficial cooperation and not to 
create another security gate of export controls and visa 
barriers that will worsen an already serious problem, 
eloquently described in the recent NAS report, Beyond Fortress 
America.
    My last point is perhaps the most important. I implore this 
subcommittee to begin the process of establishing a dedicated 
governmental fund for the conduct of high priority 
international S&T cooperation. I know you are not 
appropriators, but I urge you to do whatever you can to start 
that process. Do what a scientist or engineer would do. Run a 
test, run an experiment. Help put some money into the foreign 
affairs budget for the State Department, not for USAID because 
we do not want to project an image of foreign assistance. We 
want to cooperate with respected partners who will very often 
pay their own way in projects. We are talking cooperation, not 
assistance.
    These funds would be distributed in two ways. For science 
diplomacy initiatives, the money would go to NSF which would 
use it for agreed projects with countries designated by State 
along with OSTP and NSF. NSF can then extend grants to 
universities, appropriate NGO's or make transfers to technical 
agencies.
    Another portion of the money would be used for distribution 
to federal agencies to complement their relevant domestic 
programs and make possible the desired links to international 
cooperation. Often agencies cannot justify such expenditures 
from their domestic budgets, and I think that is critical.
    CISET would have a major role in defining the projects. The 
money will motivate agency participation, it will give CISET a 
special focus, and it will make CISET a key adjunct to OSTP's 
vital domestic role of guiding the U.S. S&T enterprise. 
Moreover, seeing that internationally the OSTP Director is in 
effect the U.S. minister for science, a reinvigorated CISET 
will provide a well-crafted portfolio for him to carry around 
the world. And when the President of the United States goes to 
another country and has a deliverable--proposes an agreement 
for S&T cooperation, the United States will finally be able to 
do more than pass the cup to already stressed agencies in order 
to cobble up a reasonable response.
    In conclusion, your CISET proposal can provide an exciting 
new way for the United States to reach out to the world. Using 
S&T we will be solving problems and building relationships, 
noble goals that would be hailed both at home and abroad. Thank 
you.
    [The prepared statement of Dr. Neureiter follows:]
               Prepared Statement of Norman P. Neureiter
    Mr. Chairman, Ranking Member Ehlers and Members of the 
Subcommittee, thank you for inviting me to testify before this 
subcommittee on the subject of managing international scientific and 
technical (S&T) cooperation in the U.S. Government. I greatly welcome 
this opportunity and commend you for your interest in this important 
subject. I feel strongly that international cooperation in S&T can be a 
highly effective soft power instrument of a constructive foreign 
policy. Unfortunately, it is one that is underutilized today.
    This subject is also of special interest to the American 
Association for the Advancement of Science (AAAS). The potential we see 
for building mutually beneficial ties through science cooperation, 
particularly with countries where political tensions may prevent normal 
relationships, was a primary motivator for the recent establishment of 
the AAAS Center for Science Diplomacy. This was announced by our CEO 
Alan Leshner before this very subcommittee on July 15, 2008.

Testimony Highlights:

    In the spirit of full disclosure, I must confess that the many 
benefits I have personally seen during 45 years of experience in this 
field have made me an unapologetic zealot regarding international S&T 
cooperation. It also seems clear that we at AAAS and the Subcommittee 
are very much in agreement about the value of such cooperation. But it 
is essential to try to establish the right machinery and mechanisms to 
implement it. First, I think that creating a focal point for 
international S&T cooperation at the level of the Executive Office of 
the President is very desirable; and that re-establishing the Committee 
on International Science, Engineering and Technology (CISET) under the 
National Science and Technology Council (NSTC) CISET committee will 
provide an appropriate body for that purpose. This new CISET must 
effectively interact with the National Security Council (NSC) and the 
State Department in its foreign policy dimensions and with all the S&T 
agencies of the Federal Government in its technical substance. Its 
effectiveness will depend in large part on an Office of Science and 
Technology Policy (OSTP) that is well integrated into the NSC process 
and has a high level of staff competence in the international arena. 
Finally, there needs to be established some dedicated funding 
appropriated for international S&T cooperation in order to give CISET 
some real substance to focus on and opportunities to impact directly 
the decision-making process.
    Although it is likely that a CISET could be established by the NSTC 
without a legislative mandate, I would support the legislative route 
that is being proposed by this subcommittee, especially as it would 
demonstrate strong Congressional interest in this subject. This 
interest, however, must be seen as a way to strengthen such cooperation 
and to optimize its benefits for science as well as for U.S. foreign 
policy and for enhancing U.S. relations around the world. It must not 
become another security gate focused on export control regimes or visa-
like barriers to interactions with other countries. I think one must be 
aware of these dangers and actively guard against them.

CISET's Functions and Responsibilities

    Historical Perspective. When I became the S&T Advisor at State in 
2000, CISET existed under the NSTC. I was intrigued with such an 
instrument and even thought that perhaps it would be appropriate for me 
to chair a meeting, although it was not resolved at State whether the 
Science Advisor or the Assistant Secretary for OES would be most 
appropriate. However, I recall only one such meeting being held, 
chaired by the OSTP Director or his deputy. It consisted essentially of 
a recitation of the international activities of one or two agencies, 
there were no action items, no follow-on and I am unaware of any other 
meetings in my three years at State. In other words, the Committee 
seemed to do very little, left no mark, and had little reason to exist.
    My point is that if there is going to be a CISET, it has to be well 
staffed and have a clear role. Certainly it should serve as a focal 
point for knowledge of what the agencies are doing internationally and 
for exchanging information among agencies. There will be important 
chances for such coordination, particularly as we move forward on big, 
multi-agency issues such as global climate change, energy, infectious 
disease, security, etc.
    With respect to setting priorities, however, the function and role 
of CISET becomes a bit murkier. There are two kinds of priorities--
foreign policy priorities and priorities for advancing basic or applied 
research. Science cooperation in support of foreign policy priorities 
is science diplomacy; and international cooperation for the benefit of 
science is essential for dealing with global problems and it often 
requires diplomatic support when multiple governments are involved.
    First, let's address science cooperation for foreign policy. At the 
present time, there is a modest U.S. Government effort underway to 
extend a hand toward Syria. On a non-government level, we at AAAS are 
exploring whether S&T cooperation can be part of our future relations 
with Syria (of course, in consultation with the State Department). 
Based on our 90-minute meeting with President Assad, we think that a 
closer relationship in science may be possible. But the next step is to 
determine whether S&T cooperation with Syria should be a priority for 
the U.S. Government. A problem is that as a committee of S&T agencies, 
CISET cannot determine the priority countries based on foreign policy 
considerations. That guidance must come from the State Department and 
the NSC. And if that guidance is positive, then the CISET mechanisms 
can be used to develop coordinated agency responses for possible 
projects. It would also be useful to have a source of funding outside 
present agency research and development (R&D) budgets to undertake the 
projects. But more about that later.
    Secondly, there are also priorities for the scientific projects to 
be carried out, and I believe there is an important role for CISET in 
setting the substantive priorities for cooperation--particularly if 
they involve big projects or big money, such as nuclear fusion, carbon 
sequestration, ocean observation, environmental degradation, 
desertification--many of these summarizable in two words: global 
warming. Such coordination at the NSTC level is vital, especially when 
the budgets to support such activities cut across several agencies, 
requiring cross-cutting decisions that have long been under OSTP 
purview.
    Finally, the draft legislation assigns the planning of 
international STEM activities to CISET. Clearly, CISET could serve as a 
constant reminder to the federal agencies of the potential for 
international cooperation and alert them to opportunities that should 
be vetted by them. However, planning a program is, I believe, a bridge 
too far for CISET. The planning of programs by CISET is only possible 
at the very broadest level of consideration. In general it seems 
unlikely that CISET could plan agency activities without the ability to 
provide funds specifically designated for those activities.

CISET's Relationship With Agencies and State Department

    It is necessary in the legislation to distinguish between the role 
of CISET and the roles of the S&T agencies and the State Department in 
developing and executing cooperation with other countries. CISET is not 
an operating body and cannot replace State or the agencies in 
negotiating agreements with other countries or their technical 
communities. Just as we talk about partnerships between the U.S. and 
other countries, there must be a close partnership among the CISET 
staff, the agencies and the State Department, if the CISET concept is 
going to work effectively. This will be dependent on the character and 
qualifications of the people involved, but would be greatly facilitated 
if CISET in fact controlled some funds designated for international 
science cooperation.
    Regarding the role of CISET in relationship to the agencies, there 
must be a value provided by CISET or it will be ignored by the agencies 
or seen only as another bureaucratic nuisance from above. An important 
service CISET could provide to the agencies would be as an advocate 
with OMB and the President for adequate funding to take advantage of 
international opportunities. When those opportunities are of a foreign 
policy benefit, the funds should be made available to the State 
Department as part of the funding for foreign affairs-not foreign 
assistance--to be transferred to the appropriate agencies based on a 
decision in CISET of the merit of the opportunity.

Role of NGOs

    We believe that non-profit organizations like AAAS can also be 
valuable in carrying out cooperative projects--particularly those of 
modest size built on promising the best science possible, even though 
chosen for the purpose of building new international relationships--in 
other words, for foreign policy reasons. For instance, the National 
Academy of Sciences (NAS) has been involved in a series of mutually 
beneficial scientific workshops with Iran over the past eight years, 
achieving a remarkable level of engagement with Iran's science 
community. AAAS has also been involved in this activity. But one must 
be careful what funds are used for such programs and what rhetoric 
accompanies them. When State declared that it had funds for NGOs to 
focus on fostering democracy in Iran, it resulted in the arrest and 
detention in Iran of a number of Iranians and Iranian-Americans 
suspected of using State Department money to conspire against the 
Iranian Government.

Funding International S&T Cooperation

    Let me finish by once again touching on the subject of funding 
international cooperation. I recognize that appropriations are not the 
work of this subcommittee, but I can say from many years of experience 
that the full potential of international S&T cooperation has been 
greatly constrained by a lack of funds. There have been discussions by 
several NGOs about the creation of a global science fund. But as one 
gets into the details of how much and to whom and for what purpose it 
should be expended, and who makes the decisions, the issue becomes 
quite complicated. We need some experiments, some pilot projects--a 
heuristic approach to the problem.
    As a first step, a line item in the State Department budget 
designated for international S&T cooperation could be established in 
the range of $25-40M and disbursed based on decisions emerging from 
CISET. These funds could be distributed to a variety of institutions 
for carrying out the projects.
    For instance, funds could be provided to a single or a set of NGOs 
for specific projects. Funds could also go to the federal S&T agencies 
to augment their own project funds and enable an international 
dimension to a project which otherwise might be impossible or to 
enhance an already internationalized program and improve its chances 
for success.
    Another good use of these funds could be a transfer to the National 
Science Foundation (NSF), which would be able to fund NGOs or 
universities in both the U.S. and abroad for cooperative basic research 
projects of high merit between U.S. and foreign institutions, which 
otherwise would not be possible. The State Department would provide 
guidance regarding country or regional priorities. Programs could also 
be established to send American professors as visiting scholars in 
foreign universities that are being newly built or expanded as 
developing countries are increasingly recognizing tertiary education as 
a vital aspect of their own development plans.
    Most importantly, as the U.S. continues to establish science 
agreements with other countries, whether as political deliverables or 
simply because they promise scientific benefit to both sides, there 
must be some funding to follow-up on these commitments. It is not 
acceptable for the U.S. to be unable to respond, even when the other 
country has been perfectly willing to pay its side of the project. And 
putting a modest amount of money under a CISET decision process and 
into the State Department's budget would guarantee close cooperation 
between the two institutions. It would also assure a high-level focus 
on science cooperation that will involve the NSC and the President and 
also be of great interest to the agencies whose international ambitions 
in the past have been stymied by their domestically focused missions, a 
lack of sufficient funds, or timid leadership. They would be 
effectively brought into the international arena and because of CISET's 
oversight role and data collection responsibility would also be well 
monitored and the results more measurable than they have often been in 
the past.

Conclusion

    I firmly believe that every consideration should be given by this 
Subcommittee to work with the appropriators and foreign affairs staff 
to create and secure sufficient funding for a pilot program of this 
kind. It has the potential to make a huge change in the effectiveness 
of our international cooperation abroad and the ability to respond to 
opportunities that will be of great value to this country's scientific, 
technical and education community. It will also make CISET an important 
and respected institution and bring high-level visibility to 
international S&T cooperation as the effective soft power instrument of 
foreign policy that it can truly be.

                   Biography for Norman P. Neureiter
    Norman P. Neureiter was born in Illinois and grew up near 
Rochester, New York. He received a B.A. degree in chemistry from the 
University of Rochester in 1952 and a Ph.D. in organic chemistry from 
Northwestern University in 1957. He spent a year ('55-6) as a Fulbright 
Fellow in the Institute of Organic Chemistry at the University of 
Munich.
    In 1957, he joined Humble Oil and Refining (now part of Exxon) in 
Baytown, Texas as a research chemist, also teaching German and Russian 
at the University of Houston. On leave from Humble in 1959, he served 
as a guide at the U.S. National Exhibition in Moscow, subsequently 
qualifying as an escort interpreter for the Department of State. In 
1963, he joined the International Affairs Office of the U.S. National 
Science Foundation in Washington and managed the newly established 
U.S.-Japan Cooperative Science Program. Entering the U.S. Foreign 
Service in 1965, he was named Deputy Scientific Attache at the U.S. 
Embassy in Bonn. In 1967, he was transferred to Warsaw as the first 
U.S. Scientific Attache in Eastern Europe with responsibility for 
Poland, Hungary and Czechoslovakia.
    Dr. Neureiter returned to Washington in 1969 as Assistant for 
International Affairs to the President's Science Advisor in the White 
House Office of Science and Technology. He left the government in 1973 
and joined Texas Instruments (TI), where he held a number of staff and 
management positions including Manager, East-West Business Development; 
Manager, TI Europe Division; Vice President, Corporate Staff; and Vice 
President of TI Asia, resident in Tokyo from 1989-94.
    After retirement from TI in 1996, he worked as a consultant until 
being appointed in September 2000 as the first Science and Technology 
Adviser to the U.S. Secretary of State. Finishing the three-year 
assignment in 2003, he was made a Distinguished Presidential Fellow for 
International Affairs at the U.S. National Academy of Sciences. In May 
2004, he joined the American Association for the Advancement of Science 
(AAAS) as the first Director of the new AAAS Center for Science, 
Technology and Security Policy (CSTSP), funded by the MacArthur 
Foundation. Dr. Neureiter is married with four children and speaks 
German, Russian, Polish, French, Spanish and Japanese.
    Dr. Neureiter was named 14 January 2008 to receive the Public 
Welfare Medal, the highest honor of the National Academy of Sciences.

    Chair Lipinski. Thank you, Dr. Neureiter. With the extra 10 
seconds there, you came right in at the five minutes. Thank 
you.
    Dr. Neureiter. That really bothered me. I am sorry.
    Chair Lipinski. Recognize Mr. Rock now for five minutes.

 STATEMENT OF MR. ANTHONY F. ``BUD'' ROCK, VICE PRESIDENT FOR 
          GLOBAL ENGAGEMENT, ARIZONA STATE UNIVERSITY

    Mr. Rock. Thank you, Mr. Chair, and distinguished Members 
of the Subcommittee. Thank you for the opportunity to be here 
today to speak on this important topic.
    Mr. Chair, global advances in science and technology have 
positioned us better than ever before to address the challenges 
and the opportunities that we face as a nation and as a planet. 
In my remarks today, I would like to refer very briefly to what 
I call the core principles or reasons for our international 
science collaboration and in talking about the mechanisms 
within the executive branch to coordinate national R&D 
priorities. I would like to discuss the strengths and 
weaknesses of the former NSTC Committee on International 
Science, Engineering and Technology.
    Mr. Chair, I support the intent of the draft legislation to 
reestablish this international committee, but I would urge that 
the reconstituted committee take particular responsibility for 
four essential areas, first to help strengthen the 
international aspects of the so-called national R&D crosscut 
priorities that are defined annually in the President's budget 
submission; second, to reinforce and strengthen the mandates of 
the federal agencies themselves to undertake international R&D; 
third, to ensure senior-level engagement in international 
science and technology collaboration that most advances our 
foreign policy objectives; and fourth, I do think that the 
committee should advise in the establishment and the 
administration of a new global science fund to enable the 
federal agencies and the broader scientific community, notably 
universities, to participate more productively in this 
enterprise.
    Very briefly, the core principles for international science 
collaboration, something that I call the four Ds, are for 
discovery, that universal quest for human understanding; for 
diplomacy, the recognition that these partnerships and this 
cooperation are expressions of broader trust and mutual 
respect; for decision-making, to ensure that governments and 
individuals make decisions that are rooted in objectivity and 
informed exchange; and for development, to be sure that the 
tools of knowledge are working for those in greatest need and 
to help those to strive to make even greater achievements.
    Within the government, the 1976 act that authorized OSTP to 
lead the interagency process also called upon OSTP to engage 
the private sector, engage the State and local governments, 
engage the higher education communities, and engage other 
nations toward this end and similarly to advise the President 
on the domestic and international implications of science and 
technology. When CISET was established, it focused on 
coordination and it focused particularly on the crosscut areas, 
issues across agency boundaries.
    Mr. Chair, each year the NSTC works with federal agencies 
and departments to identify a set of R&D areas that require 
coordinated investment across agencies and special attention in 
the President's budget, the so-called crosscut issues.
    A reconstituted and a revitalized CISET should first and 
foremost be assigned the lead responsibility to define the 
international dimensions of these national crosscuts and the 
related areas of special emphasis. In the past, CISET has 
struggled with this mission. They have often been overlooked in 
that coordinating role. Instead the NSTC committees that 
address these critical areas generally prefer to work within 
their own member agencies of the committee and overlook the 
role that CISET can play in this function. I think this has 
exposed several weaknesses. I think that the international 
aspects have not received sufficient attention, and I think 
that when they are identified, they are not translated over to 
the agencies that can follow through on them, the Department of 
State, AID, and others.
    Mr. Chair, I think that CISET should also provide thorough 
review and analysis that can support the explicit and expanded 
mandates and resources for federal agencies themselves to 
engage in international research for U.S. interests. Again, 
CISET has struggled to add value to the international issues in 
the R&D budget process for the federal agencies themselves.
    These two measures, taking the lead in defining the 
international dimensions of our national research priorities 
and supporting the resource commitments of the federal agencies 
alone will inspire the agencies themselves to seek broader 
research horizons and engage more actively internationally. 
Without this, CISET or the U.S. Government more broadly, will 
not be able to engage other than in a limited sense, in 
activities with foreign counterparts. I think that CISET should 
continue in every way possible to help facilitate the ability 
for U.S. scientists to interact with their foreign 
counterparts, deal with the barriers to collaboration, deal 
with issues such as intellectual property protection, data 
management, capacity building. I think that CISET should place 
a special emphasis on ensuring that science and technology are 
key components in our nation's strategies for development and 
reduction of conflict in regions around the world.
    Mr. Chair, Title V of the Foreign Relations Act calls on 
the Department of State to serve as the lead federal agency in 
developing the S&T agreements. I think that a close-working 
relationship between a reconstituted CISET and the Department 
of State is absolutely critical and potentially co-chairmanship 
should be considered for the committee itself. Individually, 
these agreements may not rise to the level of national 
significance, but collectively, they are an important foreign 
policy portfolio collectively.
    Finally, Mr. Chair, I believe that discovery, decision-
making, and development are all partners to the progress that 
we expect to achieve internationally. Diplomacy will be 
critical in that process. I think that CISET should highlight 
the value, defend the resource commitment, and facilitate the 
actual exchange of international partnerships in the national 
interest. Thank you very much, Mr. Chair.
    [The prepared statement of Mr. Rock follows:]
             Prepared Statement of Anthony F. ``Bud'' Rock

INTRODUCTION

    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for the opportunity to come before you today to discuss the subject 
of coordination of international science partnerships and draft 
legislation to recreate under the National Science and Technology 
Council a committee for the coordination and planning of international 
science, engineering, technology, and mathematics (STEM) activities. My 
name is Anthony Rock, and I currently hold the position of Vice 
President for Global Engagement at Arizona State University. Prior to 
joining ASU, I served for 29 years in the United States Government, 
with nearly all of that time devoted to the global issues of 
environment, science, and technology in the Department of State, at 
home and abroad.
    Nearly all of the great challenges (and opportunities) faced by our 
nation and by our planet have the capacity to be addressed in some 
measure through advances in science, technology, and creative 
innovation. We are positioned better than every before to address 
challenges of growth and opportunities for economic prosperity, needs 
for environmental protection and resource management, responsibilities 
for public health, national security, and improvements in life for the 
citizens of our nation and all nations of the world. Moreover, in using 
science and technology to address these great challenges, given the 
nature of science and the way in which research is conducted today, 
international collaboration will be essential if we expect to make 
meaningful progress in addressing these challenges.
    Today, we understand full well that the conduct of science is not, 
and should not be, constrained by national boundaries; rather, that 
scientists must be afforded the broadest possible access to 
collaborators, instrumentation and other resources if they are to 
satisfy their knowledge quest. As a nation, we have transcended the 
notion of scientific protectionism in favor of bonds of collaboration 
on a global scale. Through international collaboration, our scientific 
and engineering communities gain access to cutting-edge research, and 
our researchers are found in some of the farthest reaches of the world 
addressing global challenges. These collaborations have accelerated the 
pace of idea exchange, the rate of investment, and the growth of talent 
in science aimed at technological development. We are, collectively, a 
more economically and environmentally sustainable world through these 
international research linkages.
    In my remarks today, I would like to review briefly the core 
principles that have inspired international science collaboration for 
decades and that are increasingly relevant today. I will review as well 
the mechanisms within the Executive branch for establishing and 
coordinating national research and development priorities, specifically 
within the Office of Science and Technology Policy (OSTP) and the 
National Science and Technology Council (NSTC), and I will discuss the 
strengths and weaknesses of the former NSTC Committee on International 
Science, Engineering and Technology (CISET). I will address my support 
for the draft legislation to re-establish this committee with the 
purpose to: 1) strengthen the international aspects of the so-called 
national R&D ``cross-cut'' priorities, 2) reinforce and strengthen 
mandates of federal agencies to undertake international R&D, 3) 
coordinate and give priority to high-level international engagement in 
science and technology, and 4) advise in the establishment and 
administration of a Global Science Fund to enable federal agencies and 
the broader U.S. science community (notably universities) to 
participate more productively in global scientific and technological 
cooperation.

CORE PRINCIPLES OF INTERNATIONAL SCIENTIFIC COLLABORATION

    In my experience, I have found there to be essentially four core 
principles that inform the decisions made by our nation's institutions 
(public and private) to advance science and technology in the global 
arena; and international collaboration is nearly always a function of 
one or more of these core themes:

1) Discovery

    The simple acknowledgement that there exists an unceasing and 
universal quest and need to advance the frontiers of human 
understanding. International S&T collaboration can play a very vital 
role in advancing S&T capacity worldwide. Through cooperative cross-
border endeavors, scientists and engineers gain access to foreign data, 
platforms, facilities, sites, expertise, and technology. Broad access 
to information and minds allows scientists and engineers to work 
together to address issues of global concern and to develop, test, and 
use new ideas on a global scale. The products of such collaborations--
models, methods, tools, services--can be vital to our national economic 
and security goals, even as they improve the global condition.

2) Diplomacy

    The recognition that these bonds of partnership and cooperation 
toward common goals are themselves expressions of broader trust and 
mutual respect. It is often expressed that scientists are ``enablers,'' 
goal-oriented and motivated by objectivity and openness. These traits 
have, in turn, held (and even strengthened) ties (and perceptions of 
America) in otherwise challenging times and circumstances with China, 
Russia, India, Pakistan, and countries of the Middle East, to name but 
a few. International S&T partnerships can contribute to building more 
stable relations among communities and nations by creating a universal 
culture based on commonly accepted S&T values of objectivity, sharing, 
integrity, and free inquiry. Science, technology, and engineering 
education can also be instruments to promote democracy and good 
governance. Conversely, in the absence of diplomatic exchange, 
scientific and technological advancement may be negatively (and 
dramatically) impacted.

3) Decision-making

    The growing imperative to ensure that policies and actions of 
governments and individuals (domestically and internationally) are 
rooted as much as possible in objectivity and informed exchange. 
National policies informed by global science provide objectivity, 
transparency, and consistency domestically and across borders. Both 
domestically and internationally, science can play a vital role in 
resolving disputes and disagreements that impede progress and endanger 
welfare. International S&T partnerships can also play a key role in 
energizing innovation and overall economic competitiveness. U.S. 
leadership in international S&T partnerships helps to ensure a lead 
position in the global S&T enterprise. In the current global climate of 
interdependence across economic, social, technological, cultural, and 
political spheres, every effort must be made to apply sound policies 
that encourage progressive strengthening and application of our 
research enterprise.

4) Development

    The necessity, unchanged for generations, to put these tools of 
knowledge to work for the lives of those in greatest need and to serve 
the interests of those whose aspirations are to even greater 
achievements. Scientific communities (public and private) have long 
recognized their critical roles in providing for the health and welfare 
of their own populations and of the less privileged. Cooperation that 
advances the frontiers of knowledge can often provide as an added 
benefit the basis upon which insure sustainable growth, quality-of-
life, and stability that serves the good of all mankind. International 
S&T partnerships between developed and developing countries improve the 
ability of developing countries to become self-sufficient, to 
participate in the global enterprise, and to meet the goals of 
sustainable development--ranging from the need for more secure national 
infrastructures against global terrorism to preventing environmental 
change and degradation; managing catastrophic natural disasters; or 
mitigating the impacts of widespread health epidemics such as AIDS--all 
challenges that require the collective efforts of the world's science 
community.
    Scientists are taking ever-increasingly active roles in public 
dialogue concerning the issues of our times, and they are more directly 
informing the policy process. These are important trends that must 
continue because they bring the principles of objectivity and 
scientific methodology into the arenas that most require these 
principles. Dr. Bruce Alberts, then President of the National Academy 
of Sciences, referred to an increasing role for ``global citizen 
scientists'' who stand at the interface between new knowledge and major 
national and international societal needs, with responsibilities to 
serve as the vital informational link.

THE INTERNATIONAL DIMENSIONS OF NATIONAL RESEARCH AND DEVELOPMENT 
                    PRIORITIES

    The National Science and Technology Policy, Organization, and 
Priorities Act of 1976 (Public Law 94-282) authorizes OSTP to lead 
interagency efforts to develop and implement sound science and 
technology policies and budgets, to work with the private sector, State 
and local governments, the science and higher education communities, 
and other nations toward this end, and to advise the President and 
others within the Executive Office of the President on the direction 
science and technology and its impact on domestic and international 
affairs. In particular, the Act calls on the OSTP Director to ``assess 
and advise [the President] on policies for international cooperation in 
S&T which will advance the national and international objectives of the 
United States.''
    The National Science and Technology Council (NSTC) was established 
by President Clinton in 1993 as the principal means for the President 
to advise and coordinate the federal research and development 
enterprise with respect to science, space, engineering, and technology. 
NSTC members include cabinet Secretaries and leaders of agencies with 
significant science and technology responsibilities.
    As noted in the National Science Board's Report entitled ``Toward a 
More Effective Role for the U.S. Government in International Science 
and Engineering,'' within the NSTC, the Committee on International 
Science, Engineering and Technology (CISET) was established to 
coordinate efforts to increase the overall effectiveness and 
productivity of federal efforts in international science, engineering, 
and technology. CISET was tasked to address significant international 
policy, program and budget matters that cut across agency boundaries 
and to provide a formal mechanism for interagency policy review, 
planning and coordination, as well as exchanges of information 
regarding international science, engineering and technology.
    The issue before this subcommittee today is whether the subsequent 
dissolution of CISET should be re-examined with consideration to 
reconstitute the international committee as a formal and vital 
component of the NSTC. I would support that decision and the substance 
of the draft legislation to that effect, drawing, at the same time, on 
a few lessons of history to inform the details of the future committee.

THE ROLE OF THE COMMITTEE ON INTERNATIONAL SCIENCE, ENGINEERING, AND 
                    TECHNOLOGY (CISET)

    Broadly stated, the NSTC, and CISET in particular, should strive to 
ensure that science and technology in the national interest benefits in 
every way from collaborative engagement in the international arena. In 
this context (and derived from the RAND Report of April 2002), the term 
``science and technology'' refers to the full range of investments in 
research, equipment and infrastructure, data management, and the 
policies, guidelines, standards, and regulations that support these 
efforts. The research and development agendas of federal agencies are, 
in turn, the practical expressions of our national goals for science 
and technology. To a large extent, these R&D agendas are defined and 
implemented in a manner that will advance knowledge needed by these 
agencies to fulfill their defined missions.
    In short, federal agency research may be more appropriately 
characterized as ``service-driven'' rather than ``discovery-driven'' in 
the purest sense, though these are not entirely mutually exclusive 
agendas. For this reason, when we look to the federal agencies as the 
primary vehicles of international collaboration in science and 
technology, it is perhaps more appropriate to refer to this 
international cooperation as an alignment of mission priorities rather 
than science priorities per se. CISET should lead the process of 
strengthening agencies' capacities to engage internationally, and 
should, at the same time, work diligently to establish a mechanism by 
which the broader ``discovery-driven'' U.S. scientific community might 
join and enhance our interests internationally.

1) Setting Priorities and Supporting Budgets

    Each year, the NSTC works with federal agencies and departments to 
identify a set of research and development (R&D) areas that require 
coordinated investments across several agencies and, therefore, high-
level attention in the President's budget submission to Congress are--
``cross-cut'' issues associated with climate, energy, advanced 
computing, critical infrastructure, etc. In the past this has taken the 
form of memorandum in the spring of each year from the Director of the 
Office of Management and Budget (OMB) and the Director of OSTP to the 
heads of the relevant agencies outlining the Administration's R&D 
priorities for use in the development of the next year's budget 
request.
    In this same exercise, the NSTC also identifies a number of special 
emphasis areas that require budget oversight within the Executive 
branch but that do not require formal budget cross-cuts. For these 
areas of special emphasis, NSTC works to understand and compare ongoing 
programs across agencies and to identify gaps and overlap in these 
programs.
    The NSTC, in its FY 2000 Research and Development Priorities 
Memorandum, notes that ``these interagency priority areas should 
reflect the objectives of maintaining American excellence in science 
and technology enterprise, through pursuit of specific agency missions 
and through stewardship of critical research fields and scientific 
facilities. They should help strengthen science, math, and engineering 
education, ensure their broad availability, and contribute to preparing 
the next generation of scientists and engineers. They should focus on 
activities that require a Federal presence to attain national goals, 
including national security, environmental quality, economic growth and 
prosperity, and human health and well being; and they should promote 
international cooperation in science and technology.''
    A reconstituted and revitalized CISET should, first and foremost, 
be assigned the lead responsibility to define the international 
dimensions of these national research and development cross-cuts and 
areas of special emphasis endorsed by the Administration in the annual 
budget process. In the past, CISET struggled to execute this aspect of 
its mission. This need not be the case in the future. CISET was often 
overlooked in it role to identify and coordinate international 
dimensions of key national research priorities. Instead, as other NSTC 
committees addressed these critical areas, they generally preferred to 
explore the international elements directly with the member agencies 
within their committees, rather than through CISET. This approach 
exposed two particular weaknesses. International aspects often did not 
receive sufficient attention by the representatives to these 
committees, and these aspects also failed to convey to agencies with 
international mandates who were not active participants on these 
committees or sub-groups--the Department of State, USAID, etc.
    In conjunction with this responsibility, but not exclusively to its 
end, CISET should be called upon to provide the thorough review and 
analysis that is required to support OSTP's and OMB's endorsement of 
explicit and expanded mandates and resources for federal agencies to 
engage in international research for U.S. interests. Historically, 
CISET also struggled to add value for international issues in the 
deliberations on R&D funding for the federal agencies. While agencies 
with primarily domestic service missions would associate with specific 
national R&D priorities, they were often nonetheless reluctant to 
identify and quantify international resource commitments and needs. 
This must change, and CISET can lead that effort.
    International collaboration can take the form of defined 
cooperative research and development programs, formal and informal 
international training programs, and/or representation at international 
meetings, conferences, and activities of international organizations. 
As noted by the Interagency Working Group on International Education 
and Training, federal agency engagement in the international arena 
generally serves one or more of the following objectives:

        1.  To increase U.S. access to expertise, research, unique 
        materials and technologies;

        2.  To share the intellectual and financial burden of large R&D 
        projects internationally;

        3.  To increase national and international safety and security 
        with regard to nuclear technologies, the environment, food 
        safety, and plant and animal disease transmission;

        4.  To conserve natural resources and animal and plant life 
        diversity;

        5.  To improve public health and welfare through international 
        cooperation to develop new medical technologies and 
        intervention/prevention strategies; and

        6.  To strengthen the U.S. market position.

2) Engaging the International Community

    These two measures--taking the lead in defining the international 
dimensions of our national research priorities and supporting the 
resource commitments of federal agencies to engage internationally--
alone will inspire agencies to broaden their research horizons and 
assume wider responsibility for international engagement as an 
instrument of U.S. foreign policy. CISET will, in turn, be far better 
positioned to inform and guide the OSTP Director as senior 
representative of the U.S. federal science community with foreign 
counterparts, including dialogues with other presidential level science 
ministers and advisers. Absent these defined international priorities 
and funded commitment of federal agencies, CISET will always be limited 
in its ability to inspire new activities with foreign counterparts in 
the bilateral and multilateral working groups on science and technology 
chaired by the White House science adviser.
    Among its additional responsibilities, CISET should also ensure 
that research priorities of the United States are appropriately 
represented in the science and technology components of major 
international organizations including the G-8, the OECD, UNESCO, and 
regional organizations.
    CISET should also continue to address the broad issues that 
facilitate the ability of U.S. scientists to interact with foreign 
counterparts, eliminate barriers to collaboration and ensure access to 
scientific information from other countries. Historically, CISET did 
assume leadership on general topics associated with international 
cooperation, including matters of intellectual property protection, 
data management, capacity building, etc. In 2000, CISET supported the 
Working Group on the Intellectual Property Rights Annex in 
International S&T Agreements. The IPR issue had the potential to impact 
all agencies across all disciplines.
    CISET should place a special emphasis on ensuring that science and 
technology are key components in our nation's strategies for 
development and reduction of conflict in regions throughout the world. 
The committee should focus on the importance of setting priorities and 
coordinating research across all agencies engaged in the development 
and national security agendas. The committee should direct its guidance 
not only to our own development agencies, but also to regional and 
multinational development organizations.
    CISET led the Emerging Infectious Diseases Task Force, the 
International Water S&T Working Group, the Agricultural Biotechnology 
S&T Capacity Building in Developing Countries Working Group, and 
working groups on U.S. bilateral and multilateral relationships. 
Emerging infectious diseases and water resources management were issues 
of uniquely growing concern in the developing world, yet with direct 
implications for the United States, and for which there was a pressing 
need to expand and coordinate the responsibilities of a range of U.S. 
technical agencies, notably CDC. This effort also engaged the 
Department of Defense actively, and demonstrated the close linkages 
between quality of life issue and our national security.
    Similarly, the growing domain of agricultural biotechnology and its 
potential for the developing world brought together the domestic and 
international agendas of several key U.S. agencies. CISET played 
important roles in setting terms of international collaboration, 
raising the profile of key agencies on important issues, and building 
consensus and coordination among these agencies on these critical 
issues. These functions should continue in a reconstituted CISET.
    Through CISET, the NSTC should identify the international 
dimensions of national R&D priorities for consideration and guidance 
from the President's Council of Advisors on Science and Technology 
(PCAST). Ideally, the PCAST can ascribe the perspectives of the broader 
scientific (and user) communities to these priorities. In all 
instances, CISET should ensure that international priorities associated 
with the national research are clearly defined in order that the OSTP 
Director can accurately and comprehensively advise the President in 
this arena at any time.

3) CISET and the Department of State

    Title V of the Foreign Relations Authorization Act, Fiscal Year 
1979 (P.L. 95-426, 22 U.S.C. 2656a-22 U.S.C. 2656d, as amended) 
provides the legislative guidance for U.S. international S&T policy, 
making the Department of State the lead federal agency in developing 
S&T agreements. For this reason, a close working relationship between 
CISET and the Department of State is critical. Co-chairmanship of CISET 
by an OSTP Associate Director for International Affairs and the 
Assistant Secretary of State for Oceans, Environment and Science will 
help to ensure the committee's effectiveness. Agency participation in 
CISET must be diverse and comprehensive as well. The United States has 
a rich history of engagement in international and multinational 
programs of research--from the International Geophysical Year of 1957 
to the International Global Change Research Program or advanced mega-
science programs with key partners. It should be an assigned function 
of CISET to conduct regular reviews of these programs to ensure full 
and coordinated engagement of all relevant agencies. Even where other 
agencies champion the specific research direction of these programs, 
CISET can play a valuable role in coordination and support for the 
national resource commitments required.
    At the same time, through the leadership of the Department of State 
and the engagement of many federal agencies, the United States 
maintains nearly 40 bilateral comprehensive science and technology 
agreements (so-called umbrella agreements) and nearly 800 memoranda of 
understanding for the conduct of specific programs with international 
partners worldwide. Individually, these agreements may not rise to the 
level of national research priorities; collectively, however, they 
represent an important dimension of our foreign policy portfolio.
    The establishment of these cooperative international science and 
technology agreements, yielded results that few could have predicted, 
providing valuable exchanges of scientific expertise during the Cold 
War, securing avenues of information exchange, prompting new investment 
in development in emerging countries, opening dialogue on intellectual 
property protection in otherwise closed economies, ensuring the 
prospect of science based decision-making in critical areas related to 
health, resource management, and economic growth on a global scale. In 
many instances, scientists have received recognition (domestic and 
foreign) that has strengthened collaboration, provided for the more 
expeditious exchange of data, personnel, materials and equipment, and 
has advanced the process of discovery to application more rapidly than 
would otherwise have been the case.

4) Empowering the Broader Scientific Community--a Global Science Fund

    Historically, it may be said that the scientific community 
generally saw little value in formalizing cooperative research 
arrangements and working through diplomatic channels, favoring a 
perceived primacy of U.S. science and the assumption that global doors 
would always be open across all disciplines. Moreover, scientists 
tended to value their roles as specialists, seeing no inherent value in 
joining forces under the umbrella of a general, cooperative 
international science agreement.
    But, the great challenges that we face today call for scientific 
research that is far more distributed and multidisciplinary in scope. 
Moreover, the greater connectivity and flow of information across 
national boundaries should not detract from the continued importance of 
formal cooperative linkages, the terms of which ensure that all 
participating nations benefit from the opportunities to put science to 
productive use.
    It would be a significant and valuable undertaking for CISET to 
provide a regular evaluation of the impacts of these agreements on our 
national research agenda and our foreign policy goals, with the 
objective to set the terms for administration of a Global Science Fund 
to support and leverage the expenditure of additional resources in 
support of these activities. Internally, within the United States, 
these deliberations should be informed by all relevant stakeholders. 
Externally, to the international community, it should be clear that the 
primary goal is to foster strong, vibrant scientific links. CISET 
guidance can provide the critical link between the fulfillment of 
agency mission-driven research and enabling agencies to engage more 
actively in research programs of expanded impact to the international 
community and to U.S. foreign policy interests. Without prejudice to 
mission research budget allocations, this fund could stimulate 
collaborations and potential for even greater unanticipated returns to 
national interests.
    Moreover, every effort should be made to engage the broadest 
participation of the U.S. scientific community to include non-
governmental and academic institutions. CISET should explore the 
potential for the National Science Foundation, a lead and 
internationally respected science agency of the United States, to 
administer such a fund and to establish a formal mechanism by which the 
broader academic scientific community, under the guidance of CISET 
leadership.

CONCLUSION

    More than ever before, stresses on our population and our planet 
will demand much tighter linkages between discovery, decision-making, 
and development; and partnership for progress domestically and 
internationally will be a complex, but very important, exercise in 
diplomacy. CISET leadership should serve to reinforce the principle 
that the universal quest for knowledge and the stature attributed to 
scientific communities worldwide place scientific and technological 
collaboration in the forefront of international relations, that science 
is strengthened through international partnership. Science can serve as 
a very tool by which bridges of understanding and collaboration are 
forged and global interests are served.
    A reconstituted CISET can, and should, highlight the value, defend 
the resource commitment, and facilitate the actual engagement of 
international partnerships in the national interest. It will do so most 
effectively with shared leadership from the Department of State, active 
participation from other federal agencies, and as a strong supporting 
element to the other committees within the NSTC structure. Through its 
creative guidance, CISET can also help to establish a mechanism by 
which the broader U.S. scientific community can play a more active and 
coordinated role in this enterprise. As a member of the academic 
community, here today representing one of the nation's leading research 
universities, I would greatly welcome that initiative.
    Thank you again for the opportunity to testify, and I would be 
happy to respond to any questions.

                 Biography for Anthony F. ``Bud'' Rock
    Anthony ``Bud'' Rock is Vice President for Global Engagement at 
Arizona State University. His office is focused on enhancing and 
expanding ASU's global programs and presence and the international 
dimensions of three essential themes: knowledge acquisition, research 
and strategic engagement. Rock originally joined the university as 
special adviser to President Michael Crow for strategic international 
initiatives.
    Before coming to ASU, Rock served 30 years in the U.S. Foreign 
Service, attaining the rank of minister-counselor and retiring as 
Acting Assistant Secretary of State for Science, Technology, 
Environment, and Health Affairs. Rock also served for four years as 
Principal Deputy Assistant Secretary of State and, simultaneously for 
two years, as Deputy Assistant Secretary for Science and Health. Prior 
to joining the diplomatic corps, Rock was a physical scientist and 
coordinator for international research with the National Oceanic and 
Atmospheric Administration. He also held the position of International 
Director of the National Sea Grant Program.
    Rock received his undergraduate training at Georgetown University 
and Johns Hopkins University in the life sciences and psychology. His 
graduate training and research were at George Washington University in 
science and technology policy and Columbia University's Lamont Earth 
Observatory in marine geophysics. He is a graduate of the 43rd Senior 
Seminar, the Federal Government's highest-level civilian/military joint 
training program. Rock also served in the United States Merchant 
Marines.

                               Discussion

    Chair Lipinski. Thank you, Mr. Rock. I thank all the 
witnesses for their testimony. At this point we are going to 
move on to Members for questions. It is the Chair's prerogative 
to go first, but I am going to recognize myself for five 
minutes, but I am going to turn the time over to Dr. Baird who 
has done so much work, I know, on this issue so I am going to 
give five minutes to Dr. Baird.
    Mr. Baird. Chair Lipinski, thank you very much. That is 
very gracious of you to do so, and thank you for holding this 
hearing. Dr. Ehlers has been a lead of this issue for many, 
many years, and I am grateful for his work. And also Mr. 
Carnahan who stepped outside has been working very diligently 
along with the Foreign Affairs Committee on which he is also 
appointed. I see in addition to our distinguished panel here a 
number of folks who have been instrumental, Vaughan Turekian 
with the AAAS and colleagues from the State Department, we are 
glad to see you here as well.
    As you know, I am committed to this and I remain so 
committed to this, although I am on a different committee now. 
I stayed on this one particularly to work with the Chair on 
this issue.
    But your testimony is encouraging. We are at least on the 
right track with CISET. The need for a global fund is well-
taken, difficult in these budget times, but I think what we 
will have to do is demonstrate the return that that would lead 
to in terms of diplomatic benefits, S&T developments, the four 
Ds, basically, communicate that.
    One of my fundamental questions has always been if you have 
an administration that is committed to this, as I think this 
Administration is committed to science--they have demonstrated 
that with public statements, with budgetary efforts both in the 
Stimulus Act and in appointments that I think are very top-
flight appointments--where do you see the role, in addition to 
CISET and maybe the global fund, what else can we do to get 
State and OSTP working together? Do you think CISET will do the 
job or are there other mechanisms to do that, because that 
fundamental nexus, where both look to each other, seems to me 
to be essential, that they work together hand in glove. Then, 
how is our role in the legislative branch bringing that about? 
I will just throw that out there. I am so privileged to have 
learned from you in the past. Educate us again a little more on 
this.
    Dr. Strauss. I will take a shot at part of that, at least. 
Obviously the representation on CISET is going to be very 
important, and the Board recommended that each of the federal 
agencies appoint a senior official to be responsible for the 
international outreach aspects of their mission, presumably 
that official being also a member of CISET and being involved 
in the coordination. Clearly, too, the representation from 
State, and the involvement of State in this is absolutely vital 
to it. And I think that area needs a good deal of 
consideration, and I know that my companion here, Norm, has 
some very strong thoughts on that as well. Thank you.
    Dr. Neureiter. Just a comment on it. When I first got to 
the State Department, it was late September 2000, and I heard 
about this committee and I thought, gee, what a terrific thing 
because I had been, way back in the Nixon Administration, I had 
been in OSTP for four years. And so I realized that the vantage 
point that you have working out of the White House but being in 
the State Department, and the link to the foreign policy 
community, I think wouldn't it be great--my deputy, Andy 
Reynolds, is back here--I said to Andy, wouldn't it be great if 
we could chair that thing? Well, it turns out it was at the 
end, and then it wasn't renewed and so it never happened. But I 
thought then, what a perfect instrument, and that is why I am 
so thrilled that you folks were thinking of regenerating it.
    I think if you can come up with a well-structured and a 
well-embodied, that is, with the right people in CISET from the 
State Department, from the agencies, and particularly from the 
strong leader in OSTP, I think you have got a mechanism. I 
don't think you have to go beyond that. Then it is making that 
function to work well. I think the potential is tremendous, I 
really do.
    Mr. Rock. Mr. Chair, thank you for the chance to comment 
again, and let me just take the opportunity at this point to 
say how fortunate I think you are to have Congressman Baird 
remaining on the Committee with you. He has been a very active 
supporter of this, and it is a very important issue as you 
know.
    My comment is only to say that the State Department and the 
OSTP are leaders of a process, but they need to be able to look 
around them to see the participants in that process along with 
the leadership, and that means that we need to put some 
strength behind the federal agencies, the technical agencies 
themselves, the practical expression if you will, of this 
international science collaboration. By and large, the federal 
agencies are what I would call more sort of mission-oriented in 
terms of their science than discovery oriented, and we need to 
have both of those participants in the international science 
collaboration enterprise, if you will. When we bring our 
federal agencies to be the primary vehicles for that 
collaboration, what we are really doing is not so much aligning 
science priorities internationally as much as we are aligning 
mission priorities, which is good for us as a government and I 
think it serves our citizens. But at the same time, we need to 
be able to reach the discovery enterprise and bring the 
academic community more involved in this process, and CISET can 
help that to happen.
    So if we get the resources behind the federal agencies and 
bring the academics in, I think we help tremendously in the 
process.
    Mr. Baird. Thank you, Mr. Chair, but I want to also thank 
the Committee staff for all their diligent work on this as 
well, and I think they have done a great job maintaining that 
continuity, and I am grateful for that and to all the 
witnesses.
    Chair Lipinski. Thank you, Dr. Baird. We will have an 
opportunity to come back to Dr. Neureiter on that. At this 
time, let me recognize Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Mr. Chair. Mr. Rock, you suggested 
that CISET be co-chaired by OSTP and the Department of State. I 
am curious how the other members of the panel feel about that. 
Does that make sense to have a co-chairmanship there?
    Dr. Neureiter. I personally think it is a really good idea 
because, I don't know, even though you are only a few blocks 
from each other, when you are busy in your own house, you tend 
to stay in your house, and I think creating a co-chair--now one 
of the issues is that people have to get along with each other. 
It somewhat depends on who those people are that are the co-
chairs and that they can really work together, and if they 
can't it is a huge problem. But hopefully the leadership will 
be such in both institutions that people who are compatible 
with each other can find each other and can come together. I 
really think it is not a bad idea at all.
    Mr. Ehlers. Dr. Strauss.
    Dr. Strauss. The Task Force talked about various 
possibilities. We certainly agree that we needed high-level 
involved representation from both the Department of State and 
OSTP but chose not to make a specific recommendation in part 
for the very reasons that Norm points out, that it is important 
that if you have got co-chairs that they are really working 
closely together.
    Mr. Ehlers. Mr. Rock.
    Mr. Rock. Thank you, Dr. Ehlers. Thank you for raising that 
particular point. I raised it primarily because we did in fact 
have this situation in one of the past incarnations of CISET. 
We did in fact have the co-chairmanship. I think the one thing 
that it did bring to the table was that it is very hard to 
select from among the 40-plus comprehensive S&T agreements, 
those which really rise to the level of highest foreign policy 
significance, and the State Department helped to guide that 
decision about what came to CISET in terms of that level of 
priority. OSTP in return focused on the national R&D priorities 
of greatest significance internationally. So it tended to be I 
think a pretty strong blend when we had it.
    Mr. Ehlers. As you know, the bill does not do that now, but 
that is more for personal reasons here and getting the bill 
through rather than any item of substance. But if we didn't 
have co-chairmanships, can you imagine a good interrelationship 
between the two and some other formal arrangement or semi-
formal arrangement? Any suggestions on that?
    Mr. Rock. Well, again, I think one of the aspects that the 
committee was probably most successful in the past was to 
divide itself into subgroups around technically significant 
issues. I will tell you quite candidly, Congressman, that when 
we did the pandemic influenza working group, we did it only 
partly because that was an internationally significant issue. 
We also did it because it helped elevate the visibility of CDC, 
give more recognition to its mandate, give greater potential 
for its resources, and to bring it into a closer working 
relationship with DOD. That was a very valuable exercise, just 
for that sub-group alone.
    I could see the State Department exercising responsibility 
over particular subgroups within the committee that would focus 
on foreign policy priorities to ensure that, even at a subgroup 
level, that we are attaching the greatest significance to the 
items that are most important to our foreign policy as well as 
our national R&D goals. Working group or subcommittee 
chairmanship is valuable as well.
    Mr. Ehlers. Okay. That is very useful. One last question on 
this score. Are you aware of arrangements that other nations 
have made that we might use as a model for our relationship 
between State and science? For anyone.
    Dr. Neureiter. I am not aware of any particular arrangement 
of broad. Another possibility would make the State Department a 
deputy chair of the committee. Now again, maybe for reasons if 
you don't want to do something like that, but that would at 
least establish State as a very important partner in the 
leadership process. But again, I think it could happen without 
that provided the people can get along and work well together 
and also if the real mission of this institution is broadly 
accepted, supported by the President, and strongly supported by 
the Director of OSTP. I think that can make for a very powerful 
organization.
    Mr. Ehlers. Actually, I think those are the two most 
important factors, if you have the President's support and OSTP 
support, you are home free. You can do a lot. If you don't have 
it, it is very, very difficult.
    I see my time just expired, so I will yield back.
    Chair Lipinski. Thank you, Dr. Ehlers. I think we will have 
time if you have more questions. The Chair now will recognize 
himself. I will play a little loose with the rules in terms of 
we will call this a second round of questions. I will call on 
Dr. Baird who I believe is going to yield then his five minutes 
to me, so thank you. Okay. So now we are officially still on 
the first round of questions.
    Dr. Hane was not here today, but in his written testimony 
he discussed the need for CISET to draw upon the research 
community broadly to identify and assess international 
opportunities. So I want to ask all of you, how might CISET tap 
into universities, industry, and non-profits with relevant 
expertise? And this is something that I am particularly 
interested in. It seems in so many areas we do not do enough of 
that. I have a bias, having been a professor before I was 
elected to Congress. I know the university research and how 
important that is in the research community there but also 
bringing industry, non-profits. We could do so much more in 
working together. So I want to throw that question out there. 
Who would like to start? Mr. Rock.
    Mr. Rock. I would be delighted to start being now a 
representative of the academic community after 30 years in 
government, so obviously I strongly support your motivation in 
this regard to reach out more broadly. When we look at 
collaboration internationally and the scientific community and 
other countries looks at us, they anticipate that they are 
building a relationship with the broad, U.S. scientific 
enterprise. Their only partners are the federal agencies. As I 
said earlier, they aren't getting the full breadth of that 
opportunity. For the benefit of U.S. science as well as the 
international collaboration aspects, I am a strong supporter of 
getting that reach as broad as possible. I might fine tune that 
by saying that if the representative for science cooperation 
only appears to be the State Department, it adds from the 
foreign perspective a certain political dimension that does not 
always favor scientific relationships. It is one of the reasons 
why I personally as a person now sitting in academia would like 
to see the National Science Foundation playing a more active 
role in helping to build those relationships because it will 
send the message internationally that it is a science-to-
science relationship that we are employing in this regard.
    Chair Lipinski. Thank you, Mr. Rock. Dr. Neureiter.
    Dr. Neureiter. If one goes for something like the global 
science fund model, and in a way, my suggestion of putting 
money in the State Department which indicates that it would be 
specifically for international cooperation but particularly for 
science diplomacy initiatives transferring a portion of that 
money to the National Science Foundation, I think that does 
achieve it because the National Science Foundation can work 
with NGO's, it can work with universities, and it can make 
grants to whatever institution is appropriate to participate in 
that cooperation. I think that Gerald's suggestion is a very 
good one. If one does something slightly different with the 
global science fund, they could of course call on any aspect of 
American S&T strength to participate in the programs.
    Chair Lipinski. Thank you. Dr. Strauss, do you have 
anything to add?
    Dr. Strauss. Very briefly. After spending virtually 50 
years in higher education, I am embarrassed that the Task Force 
didn't give more thought to the representation of that enormous 
wealth of scientific and engineering talent in the work of 
something like CISET. I believe our oversight is prompted 
largely by our view that the National Science Foundation serves 
so well in that regard, and we presume it would be active, very 
active, in the CISET initiative.
    Chair Lipinski. Thank you, gentlemen. I want to throw 
something else out there, an opportunity to address an issue 
that does come up. How would CISET complement and enhance 
rather than duplicate the international work of subject area 
committees such as the nanotechnology subcommittee and others? 
So what is the addition rather than just duplicating the work 
of other committees? Who wants to start out here? Dr. 
Neureiter.
    Dr. Neureiter. It just strikes me, I am so pre-occupied 
with the importance, the diplomatic value, the scientific value 
of international cooperation, that I think to count on the work 
of these domestic committees, even if they are supposed to talk 
about international and supposed to talk about competition 
abroad and worry about our competitiveness, the fact is they 
end up focusing on the domestic issues and domestic problems, 
and you will never get the attention I would like to see on the 
international relationship unless you have some other 
mechanism. And I think CISET is probably the right mechanism 
because you are bringing all of those groups together, 
hopefully in a very effective way to concentrate on the 
international dimension, drawing on the domestic strengths to 
make it work.
    Chair Lipinski. Mr. Rock.
    Mr. Rock. Mr. Chair, science today is more distributed and 
far more multi-disciplinary than it has ever been in the past. 
My hope is the NSTC will recognize that even in its issue-based 
committees and extend the concept of what that issue really 
represents to begin with.
    The biggest challenge that we had historically in this 
regard was that the agencies with international mandates, and I 
mean specifically the State Department and USAID, tended to be 
the least participatory in the issue-based committees 
themselves. SO they really did not exercise--even when the 
opportunity was identified to work internationally in the 
issue-based committee, it was never conveyed over to the 
department, to the agencies that could carry that process 
forward. I think that CISET needs to take that head-on. They 
need to say, we understand the international dimensions, we 
know it from the level of the national priority and crosscut, 
all the way down to the individual federal agencies' 
responsibilities and get behind supporting it.
    Chair Lipinski. Thank you. Mr. Tonko, do you have any 
questions at this time? Thank you. We are going to move onto 
the second round of questions, and I will recognize myself for 
five minutes and yield those five minutes to Dr. Baird.
    Mr. Baird. I am enjoying this, Mr. Chair, thank you. I ask 
a somewhat difficult question potentially. One of the 
challenges seems to be that if you look--the broad question is 
going to be this--in addition to the CISET proposal and 
possibly a global science fund, what are other changes we need 
to make? And let me put a couple of potential issues out there: 
If you look at USAID and you talk to folks in the field, there 
tends to be this sort of, they have got the thing they do and 
that is what they do, and whether that is providing often 
development assistance, sometimes emergency-type relief, but it 
is, you know, feed people, get health care, clean the water, 
that kind of thing. This is a bit of a different kind of 
approach than the primary infrastructure and custom maybe of 
USAID. At the same time, NSF, for their part, have certain 
restrictions on what money can go overseas. They can't fund, it 
is my understanding, international researchers.
    What are your thoughts about how we can sort of impact 
maybe the culture of USAID to where they would see that an 
investment in science-diplomacy type activities is actually at 
least as meritorious as the other thing, and conversely, what 
are your thoughts about should we make some changes to NSF's 
constrictures against foreign funding or would the global 
science fund as you envisioned it take care of that? Those two 
questions.
    Dr. Strauss. Let me comment very briefly. The Task Force 
considered these issues quite carefully, particularly 
recognizing the very positive history of USAID and supporting 
science around the world. And we were mindful of the work that 
the National Research Council had done several years ago in 
recommending some structural changes to try and reinforce the 
science expertise within USAID to try to address this. In 
thinking about this, we recommended increased attention in 
USAID and the State Department to these issues, and then we 
were delighted just a year ago now with the NSF and USAID 
entered into a memorandum of understanding which I mentioned in 
my remarks that has dual funding, with the NSF funding the 
domestic side and the USAID funding the foreign partners side 
of partnerships on issues of common global concern.
    We are really quite comfortable with that, and so far this 
memorandum of understanding has been applied in several 
different areas that seem to be producing good results. And we 
are anxious to see it further advanced.
    Dr. Neureiter. I started working at NSF in 1963 in their 
international operation, and I had a great dream for NSF at 
that time that we might turn it into a major institution for 
international cooperation in science. And in a way they have 
been a model for similar organizations throughout the world. So 
it has played a very important role.
    This recent agreement between AID and NSF which was put 
together with the help of Nina Federoff at the State Department 
I think really does a very good job in that regard if AID will 
buy into it and as AID emerges from the new Administration, how 
it can really grab hold.
    The important thing about the recommendation that I made 
that the money from the State Department go to NSF but it would 
be different money from the standard NSF money and would be 
treated differently and hopefully legally can be handled 
differently and would not be restricted. On the other hand, our 
real model for this science cooperation is pretty much that the 
partners, each partner, funds his side of the bargain. I mean, 
it was just funny with India because I still chair the 
government's relationship with India but we only have rupees 
that we can use in that program, and when the Indians say to 
me, you know, even the Slovenians for our cooperation are 
paying a million dollars on their side for their share of 
cooperation with us and we are willing to put in tons of money 
on our side, why can't you find a few dollars on yours? Well, 
anyway, we struggled with that and had a solution but not a 
very good one.
    So I think that kind of takes care of it. It you 
appropriate money to a place where it can be specifically for 
international activities, and then if they can transfer it to 
NSF and NSF can use it effectively and not violate any 
strictures, I think that takes care of it. And this AID 
relationship is really quite exciting if that could be made to 
work and AID buys in.
    Mr. Baird. Part of the reason I ask the question is when 
one travels internationally, it is pretty common to meet 
scientists who were trained domestically here, got their Ph.D. 
from major American universities, then went back, and 
oftentimes, where as here they may have had state-of-the-art 
access and they go back home and this whole career, that they 
have worked their whole life, just dead ends. They have no 
funding, they have no tools, and sometimes a fairly small 
amount of money from us could help keep them going. And they 
may be, in their home country they may be the person. You know, 
here we may have umpteen hundred water purification scientists 
or something. They may be it in their country, and to not give 
them support and collaboration and professional esprit de corps 
really could hurt us, and sometimes a small amount would not, I 
don't think, detract measurably from available U.S. funding but 
might increase immeasurably the benefit internationally. Mr. 
Rock.
    Mr. Rock. Thank you, Congressman. Three quick points. First 
of all, I want to support what has already been said. I think 
the value of the AID-NSF MOU is tremendous because it does set 
some targets and direction.
    The second point is that with regard to the establishment 
of a global science fund, I think that if it were, for example, 
exercised through NSF, that may perhaps be one of the most 
important elements of a need for legislation at all, to define 
those specific terms. But quite frankly, if those resources 
help to energize federal agencies and leverage their resources 
more actively, then the federal agencies can reach out 
internationally. If it helps leverage the U.S. academic 
community to engage more, they can reach out internationally. 
So it is a bridge so to speak.
    My final point in that regard is, you asked the question, 
how will AID's orientation be to something like this? I go back 
to my four Ds and say if you can help AID understand that 
science plays a role in the decision-making process, to help 
policy-makers make objective decisions for governance in their 
countries, that science plays a role in that, that is an 
extremely valuable tool that AID should be supporting.
    Mr. Baird. Thank you. Mr. Chair, thanks, your indulgence. I 
will yield back seven minutes when it is my turn.
    Chair Lipinski. Thank you, Dr. Baird. Now, the Chair now 
recognizes Dr. Ehlers for five minutes.
    Mr. Ehlers. In that case, I will take the seven minutes he 
just yielded.
    Chairman Lipinski. This is our final round, so go ahead.
    Mr. Ehlers. I don't have much in the way of questions but 
Dr. Neureiter, you made some fairly strong and spirited 
statements in your testimony, and in particular one that went 
something like you wanted to prevent CISET from becoming 
another security gate focused on export control regimes or 
visa-like barriers to interaction with other countries. The 
first question, was this an issue during the Clinton 
Administration when CISET was around and are you speaking from 
experience that this happened or is it a fear that it might 
happen or both?
    Dr. Neureiter. Well, just remember, I came back to 
government seven years ago. No, it did not happen in the 
Clinton Administration, but security and protection and keeping 
us safe from everything and everybody around the world has been 
such a dominant theme for the last eight years, I just wanted 
to make the point that this must not happen with this 
organization. That cannot be a preoccupation. And I think all 
of the language and all of the rhetoric and all of the words 
that have been used in connection with this activity--your 
hearing, and your motivation, and your motivation, all point in 
the direction of really fostering the international 
relationship and reaching out to the world, and I just wanted 
to make that point clear. Certainly there has nothing been 
said, either in the history of CISET or in connection with this 
hearing that suggests it is a danger, but I can tell you, the 
last seven years, that is the way so many things have gone.
    Mr. Ehlers. Well, your message came through loud and clear, 
and I appreciate that. Basically you are saying you don't think 
we should have another co-chair from Homeland Security on this 
as well. Okay.
    Dr. Neureiter. Just one more point on that. Just on the 
report which the National Academies did on that subject, Beyond 
Fortress America, I understand you have been briefed on that. 
But that is a very important report. It was chaired by Brent 
Scowcroft, and when he stood up--I was on that committee--and 
when he stood up in one session and said, the system is broken, 
the visa system is broken and the export control system is 
broken and we have got to fix it, that is pretty strong 
rhetoric from that man.
    Mr. Ehlers. I don't have any further questions, so I will 
yield back.
    Chairman Lipinski. Thank you, Dr. Ehlers. You are 
recognized, Dr. Baird.
    Mr. Baird. I would be happy to yield my time to the Chair.
    Chairman Lipinski. I am actually going to pass my time to 
Mr. Tonko because then I want to go to Mr. Tonko and if no one 
else is here, I want to wrap up so use the five minutes, Mr. 
Tonko.
    Mr. Tonko. Thank you, Mr. Chair. Gentlemen, welcome. Being 
new, I have also heard in some circles that anecdotally many 
foreign science ministers or organizations look to start a 
conversation with the United States agencies about potential 
partnerships but that because of the depth and breadth of our 
portfolio of programs that are, you know, placed amongst many 
agencies, it makes it very difficult. My question is, can the 
Committee on International Science, Engineering and Technology 
be helpful in serving as a point of contact that can then 
direct these potential partners to the right sources and maybe 
streamline those actions?
    Dr. Strauss. When our Task Force was recommending the 
creation of such a committee, that wasn't on our minds but as 
you phrase it, it strikes me as an important issue. Something 
we address within NSF through our Office of Science and 
Engineering in terms of coordinating the work or the various 
directorates across the international marketplace, and you 
could well see that being an important function in CISET.
    Mr. Rock. Thank you, Congressman. I guess I would exercise 
only word of caution in this process and that is I do believe 
that the Title V of the Foreign Authorization Act in 1979 which 
sets the terms for the State Department's role in implementing 
science and technology agreements puts them as the lead federal 
agency. My biggest concern historically with CISET was that we 
didn't bury it in minutia. There are many ministries of science 
and many higher councils of science and technology and many 
organizations that seek relationships with the United States, 
and I think our federal agencies have done a pretty good job in 
trying to balance those priorities against their own mission 
priorities. I worry that we tax the federal agency sometimes 
too much and that if we put the pressure down on them from a 
senior-level executive branch committee, that we make it very 
difficult for them to be objective in the relationships that 
they try to build. I think CISET selectively, the OSTP 
director, should lead, not just advise but should lead those 
relationships, and it is up to the State Department with the 
support of the federal agencies to work with CISET to identify 
in which relationships that leadership should be exerted.
    Dr. Neureiter. I think typically you'll see that an initial 
contact, say from a foreign science minister, often will come 
to an ambassador or come to the State Department, so that will 
tend to be the initial gate through which someone enters the 
United States. So I think it is up to kind of a reinvigorated, 
internationally oriented science community in the government to 
direct that inquiry in whatever way is appropriate. So I think 
to assign that specifically to CISET is probably something I 
would not do. I would count on the structures which emerge from 
this whole CISET complex to handle those inquiries which will 
tend to come through the State Department gate.
    Mr. Tonko. I think Dr. Neureiter and Mr. Rock, you both 
worked at the State Department, am I correct? How would the 
Office of Science and Technology policy work the State 
Department into accepting the coordination and planning role 
that CISET could offer? How could they build the buy-in to that 
kind of partnership?
    Mr. Rock. I would reiterate one point that I made earlier 
which is that CISET, OSTP, and the Department of State both 
would serve as leaders of a process. But the actual execution, 
the practical expression of it, is coming from the federal 
agencies and from the broader U.S. science community. So we 
have to have a process that brings all of those players into 
the room together. I think that the State Department, I would 
like to believe from my 29 years associated with the 
institution, I do think that they appreciate the value of 
science and technology in our foreign policy objectives. I 
think they need the tools to make sure that they can execute, 
and those tools come first and foremost from the federal 
agencies and secondarily from some mechanism which we are now 
discussing to reach out more broadly into the U.S. science 
community. They are helped tremendously when OSTP endorses that 
objective. And it is okay with me if OSTP is endorsing it to 
advance our national R&D priorities at the same time. I don't 
think that is an inconsistency, to advance the national R&D 
objectives and the foreign policy objectives at the same time.
    Dr. Neureiter. Generally speaking there is no problem 
getting State Department buy-in to OSTP. We were always 
grateful when they paid attention to us.
    Mr. Tonko. Is there a way to more cleverly or effectively 
construct that outcome in the language of this legislation?
    Mr. Rock. Congressman, there is a painful way of doing it, 
speaking as someone from the State Department side, and that is 
historically we had a process whereby OSTP prepared a document 
which they delivered to Congress annually, the so-called Title 
V report which was under the leadership of OSTP and was 
prepared by the State Department. It was a very labor-intensive 
document. I am mindful of the fact I have State Department 
colleagues behind me, and if I were to say at this moment that 
we should reinstitute that approach, I don't know if I could 
make it out of the room.
    Mr. Tonko. There is always the back door.
    Mr. Rock. That is right. But there is an abbreviated 
version of that annual reporting exercise that might provide 
some value in ensuring that the State Department and OSTP are 
in sync, and CISET would play a valuable role in that.
    Mr. Tonko. Thank you.
    Chair Lipinski. Thank you for those good questions, Mr. 
Tonko, and the Chair would like to recognize now Mr. Carnahan 
for five minutes.
    Mr. Carnahan. Thank you, Mr. Chair, and thank you to the 
panel. I apologize for being out for a minute. I had a Foreign 
Affairs Committee going on, and so it is a great overlap here 
between what we are doing with the Foreign Affairs Committee 
and the work of this committee.
    I guess I have got a comment and a suggestion and a 
question. My comment, it was great that one of you mentioned 
President Truman in the 1950's convening this, so being from 
the State of Missouri, I appreciate that. But the leadership 
really does come from the top down, and I am also pleased that 
we have a new President who has been very vocal in promoting 
science, good science, and making science cool again, let us 
face it. So it is a great difference in the community.
    I guess my suggestion, it is one of my personal missions 
here to eliminate from our vocabulary the use of the term soft 
power. I think it is counter-intuitive, and I would much prefer 
and suggest we use the term smart power in terms of describing 
these other tools of diplomacy. Enough of my lecturing, but 
onto my question. When Secretary Chu testified before the Full 
Committee on R&D efforts in the Department of Energy, he stated 
that one of the most promising sectors for international 
science cooperation was in building R&D, and I just wanted to 
ask the witnesses to comment on this potential, in particular, 
or any other areas that you think would be top priorities for 
this type of science diplomacy engagement. Dr. Strauss, we will 
start with you.
    Dr. Strauss. I was sort of hiding there for a moment. I 
certainly wouldn't dismiss the importance of building 
engineering, both as a major source of energy usage that is 
clearly a national and international issue, but I look at all 
the other global science and engineering related problems and I 
wouldn't put the building issue at the front of those. I am 
thinking now of natural disasters, epidemics, sustainable 
energy, writ large, non-proliferation and some of these other 
major global issues. So I don't mean to take exception with my 
colleague on that because I understand the importance of the 
building thing. That wouldn't be at the top of my list.
    Mr. Carnahan. Dr. Neureiter.
    Dr. Neureiter. I was focusing on your comment at the 
beginning on using instead of soft power, smart power, and I 
wanted to add that we have actually changed powers. We have 
just come back from the science diplomacy trip to Syria. 
Remarkable. Spent 90 minutes with the President of the country 
and talked about how maybe a relationship in science can begin 
to change. We talked about working in water, energy, and 
agriculture and trying to find some things. We are trying to 
make that happen now. But we didn't like using power too much 
when we are trying to relate to another country, so we came up 
with the word smart engagement which I thought was another 
interesting way of going.
    I don't think I have really much to add on the other point. 
I was thinking very much about your terminology, which I find 
very interesting.
    Mr. Carnahan. I think we are on the same page on that one. 
Mr. Rock.
    Mr. Rock. I would just make one brief comment on this and 
that is that I do have some concerns when we focus our 
objectives on what appear to be sector-driven priorities. I 
think we should be focused on challenge-driven priorities 
instead. So if one were to ask me today, you know, do I think 
that the energy sector is more important than the water sector 
is more than the health sector, I would say I simply can't draw 
that distinction, but I recognize the challenges for 
development, I recognize the challenges for quality of life, 
for sustainability. And that is why science today has become so 
much more distributed in its scope and so much more multi-
disciplinary. Each year when OSTP sets forward its national R&D 
priorities, the so-called crosscuts, the emphasis is placed on 
the kinds of initiatives that will require crossing agency 
boundaries, really, in a budget sense as much as anything else. 
And that is why you might get climate or you might get critical 
infrastructure or national security and issues of that sort 
identified, but the fact is, they are all focused on challenges 
and not just on the sector itself. And I would hope that we can 
start to begin thinking in those terms.
    Mr. Carnahan. I appreciate that. I thank you all.
    Chair Lipinski. Thank you, Mr. Carnahan. I want to thank 
our witnesses for testifying today. I think this is the second 
hearing of the Subcommittee this year, and I think this is 
another great opportunity that we have had. The testimony was 
excellent. I think the questions from the Members were 
excellent. I liked a lot of what came out of this. I think all 
of our witnesses and Members have really done a good job of 
really getting out there why it is important for CISET to 
exist. I think this would help clear up a lot of questions that 
there may have been. Of course, there is always much more work 
to be done. I like the smart engagement. I am going to be using 
that from now on. Remember that and use it. Mr. Carnahan has 
said the President has made science cool again. I am not 
certain about that yet but moving in the right direction 
certainly. I think that is something Dr. Ehlers likes to talk 
about, that we need to make science cool in some ways so we get 
more people interested, more kids interested in going into all 
the STEM fields.
    But I want to thank our witnesses and the record will 
remain open for two weeks for additional statements for the 
Members and for answers to any follow-up questions the 
Committee may ask the witnesses, and with that the witnesses 
are excused and the hearing is now adjourned.
    [Whereupon, at 3:28 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                  Prepared Statement of Gerald J. Hane
    Mr. Chairman and Members of the Committee, I am pleased to testify 
on the draft legislation to enhance international cooperation in 
science and technology that can strengthen the domestic STEM enterprise 
and U.S. foreign policy goals.
    My name is Gerald Hane and I was the Assistant Director for 
International Strategy and Affairs for the Office of Science and 
Technology Policy under Neal Lane at the end of the Clinton 
Administration. In that position I reported directly to Dr. Lane and 
was the principal OSTP coordinator for the Committee on International 
Science, Engineering and Technology (CISET). I was with OSTP from the 
beginning of 1995 to the beginning of 2001 and during that time I also 
had responsibilities in the area of commerce and security. Currently I 
am a consultant to venture companies and investors interested in trans-
Pacific partnerships as well as in the area of science and technology 
policy.
    In my current work I see firsthand both the fast rise of science 
and technology capabilities internationally, particularly in Asia, and 
the expanding possibilities for win-win cooperation. In the past few 
years, for example, I have organized four science missions to China as 
part of assessments of the World Technology Evaluation Center, and in 
every case the senior U.S. scientists found at least one major surprise 
in which researchers or institutes in China were defining the 
scientific frontier. In all cases they were impressed by the fast rate 
of development of the science enterprise there. In the venture capital 
world, Asia, and again China in particular, has been a hot spot of 
growth activity.
    Ensuring the re-establishment of responsibility for strategic 
international cooperation in the National Science and Technology 
Council (NSTC) is an important step toward strengthening the ability of 
the U.S. Government to more effectively leverage rapidly advancing 
resources and expertise in other countries and to accelerate the speed 
of discovery.
    In my testimony, I would like to focus on issues of execution and 
go directly to the questions posed in the hearing charter. There are 
three things that the agencies need if they are to move ahead to more 
fully exploit the benefits of international cooperation in S&T: 
mission, money, and motivation. I will incorporate these themes in my 
discussion as I attempt to respond to the questions for this hearing.

Question 1. What are the respective roles of the Department of State 
and the science agencies, such as the National Science Foundation, the 
Department of Energy and the National Institutes of Health, in 
international science and technology cooperation? How does each agency 
set its priorities for S&T cooperation? What is the role of the Office 
of Science and Technology Policy in fostering international S&T 
cooperation and in coordinating federal activities?

    The agencies are typically careful about defining their use of 
international cooperation in science and technology in manners 
consistent with their missions, and consistent with the priorities 
established by their leadership. Representatives of these agencies can 
speak in much greater detail about their missions, priorities and 
activities, but the approaches have clearly differed among the S&T 
agencies. For example, the Department of Defense and the National 
Institutes of Health, together accounting for the bulk of federal 
research and development, are the most active in seeking the best R&D 
partners around the globe and have major international programs that 
involve substantial direct funding of international researchers. Prior 
to NIH doubling which began at the end of the Clinton Administration, 
one estimate from NIH was that perhaps five percent of their research 
budget at that time funded international researchers, bearing in mind 
of course that NIH has major visiting researcher programs.
    The National Science Foundation appears to be restrengthening its 
international partnerships to take advantage of this global rise in S&T 
capabilities spanning Asia, the Middle East, Africa, and Latin America 
as well as traditional partners in Europe. The Partnerships for 
International Research and Education (PIRE) is one program that has 
resonated well in the academic research community, maintaining a high 
standard of research while catalyzing collaborations often in parts of 
the world where S&T links with the US have not been well established.
    The Department of Energy must engage in international cooperation 
if it is to effective address the global challenges in energy and 
climate. However, in the past, DOE has been among the more reticent 
agencies regarding entering the international arena, particularly in 
energy efficiency and renewable energy. There has been a perception 
that international projects open doors to criticism and budget cutting.
    Other agencies, such as the U.S. Geological Survey, have been 
restrained in international cooperation by their interpretation of the 
domestic focus of their mission. Yet data and technologies developed by 
USGS such as geographic information systems are highly complementary to 
efforts abroad, with applications that range from disaster mitigation 
to bio-diversity management to humanitarian relief in regions of 
conflict.
    The Office of Science and Technology Policy has responsibilities to 
advise the President and Vice President and to lead in the development 
of S&T policy priorities and strategies that will advance the 
President's goals. However the staff size of OSTP is small and limited 
by its budget which has been flat over many years.
    In order to more effectively define and in particular execute 
Presidential priorities, the National Science and Technology Council 
(NSTC) is an invaluable asset. The value of the NSTC derives from the 
fact that it is a body to which the most senior member of each 
department or agency also belongs, so each participant is a part of the 
NSTC and the incentives for participation are more clearly aligned with 
department and agency leadership.

Question 2. If OSTP reconstituted a Committee on International Science, 
Engineering and Technology (CISET) under the National Science and 
Technology Council, what should be the unique role and responsibilities 
of that committee? What lessons can be learned from the previous CISET 
of the 1990's? Does the draft legislation being considered 
appropriately describe the purpose and responsibilities of an effective 
CISET?

    The draft legislation captures well the principle roles of CISET. 
CISET plays a role in the areas in which strategic coordination of 
international S&T activities can enhance the ability to achieve policy 
goals set by the President and Congress. Roles that CISET can play 
include the following:

        --  Developing interagency strategies for international 
        cooperation in science and technology to address strategic and 
        scientific priorities.

        --  Developing of a more strategic approach to working with 
        other nations in meeting common challenges.

        --  Coordinating the activities among various agencies to 
        better ensure the effective use of resources.

        --  Validating priority areas of attention for planning and 
        budgeting within each of the agencies.

        --  Enabling scientists to identify and assess international 
        challenges and to propose interagency solutions.

        --  Creating a means to, with a collective position, engage 
        with the Office of Management and Budget and National Security 
        Council to ensure appropriate support.

An Example--CISET Emerging Infectious Diseases Initiative

    The CISET Emerging Infectious Diseases Initiative provides one 
illustration of how this process can work effectively. The need was 
identified by the public health and medical communities, the strategy 
for the U.S. Government's response was developed by CISET, and the 
principals of the working group provided the leadership to strengthen 
the resources needed to execute the strategy.
    Momentum for this initiative was catalyzed by a report of the 
Institute of Medicine in 1992, Emerging Infections, Microbial Threats 
to Health in the United States, led by Josh Lederberg. This report 
built on prior IOM studies of this area and made specific 
recommendations for actions that should be taken across numerous 
federal agencies. The principles of CISET--the OSTP Associate Director 
for National Security and International Affairs, Jane Wales, the Under 
Secretary for Global Affairs, Tim Wirth, and the Deputy Administrator 
of USAID, Carol Lancaster, directed the formation of a Working Group to 
examine the issue. This Working Group on Emerging and Re-emerging 
Infectious Diseases was chaired by the Surgeon General, David Satcher.
    CISET issued the report of this working group in 1995. Although 
CISET could have proceeded directly to develop the strategy, the CISET 
principals felt that an even higher level of engagement would be useful 
to solidify commitment to the importance of this issue as well as to 
gain the needed resources.
    CISET principals thus used the report and its recommendations as 
the basis for a Presidential Decision Directive (NSTC-7) in 1996. NSTC-
7 became the cornerstone for subsequent work in this area, with the PDD 
directing the formation of a Task Force on Emerging Infectious Diseases 
co-chaired by the Surgeon General and the Associate Director of OSTP 
and charged with developing a government-wide strategy to address the 
global threats of emerging and reemerging infectious diseases.
    At that time, there was a movie, Outbreak, starring Dustin Hoffman, 
which portrayed a fictional outbreak of the Ebola virus. It was 
reported that Dustin Hoffman received over $8 million for this role. 
The entire budget of the Centers for Disease Control to address global 
emerging infections was about $5.6 million.
    As a result of a subsequent year of work, the CISET task force 
developed a multi-year, budget specific plan for addressing this area. 
The clear articulation of this strategy strengthened support for the 
initiative with the administration and Congress. Budgets were increased 
over time, with the CDC's FY 2001 budget for infectious diseases 
increasing to $182 million of which emerging infectious diseases was a 
principal theme.
    Parenthetically, I should note that even with the backing of a PDD, 
full cooperation is not ensured among all members of the agencies. In 
an early OMB meeting one examiner resisted the initiative noting that 
he had never heard that emerging infectious diseases were a substantial 
problem. When the issue of countering bioterrorism was raised as a 
potential benefit, another OMB staff member objected that making such 
connections was exploiting alarmism. When the U.S. Senior Official to 
APEC was encouraged to raise this in that forum, he replied that he did 
not see the significance of the issue.
    The CISET task force strengthened coordination between the agencies 
and provided a jump-start to the government's response to infectious 
disease in bioterror after 9/11. A solid foundation was thus laid for 
the rapid increase in funding that occurred in the post 9/11 
environment. The issue also became and remains a key theme of the APEC 
Leaders Meeting.

Other CISET Initiatives

    At the time of the end of the Clinton Administration, there were 
CISET working groups which were beginning to address a range of issues.

        --  Water--a working group was formed to investigate ways that 
        strengthened international cooperation in S&T could better help 
        the U.S. address both our own water challenges as well as our 
        foreign policy priorities. This work emerged from grassroots 
        activities organized through the Sandia National Laboratory. 
        This work was also designed to support U.S. contributions to 
        the growing international policy dialogue over water.

        --  Genetically Modified Organisms (GMOs)--GMOs were just 
        emerging on a large scale at that time and the global debate 
        was intense. This effort arose from professors and industry 
        many of whom felt that the benefits and risks of GMOs as known 
        by science, were being lost in the high volume politicized 
        debate. Also, the emergent InterAcademy Council comprising 
        academies of sciences in numerous countries was taking up the 
        GMO issue as one of the first that they wished to address.

        --  S&T and capacity building--This initiative emerged from the 
        international AID community. In USAID there are generally 
        speaking two factions, one which gives priority to longer-term 
        capacity building partnerships such as those involving S&T, and 
        the other, currently more powerful faction, that emphasizes 
        attention to emergencies and immediate challenges of the 
        moment. PCAST took this up as an issue and recommended that the 
        President issue an executive order to reinvigorate U.S. 
        commitment to the longer-term capacity building advantages of 
        S&T. Unfortunately time ran out prior to the full approval of 
        the executive order.

        --  Natural disasters--The initial effort in this area emerged 
        from disaster research and mitigation community. There was a 
        sense that monitoring, research and response capabilities were 
        uncoordinated both domestically and internationally, weakening 
        the U.S. capability to respond. This became overshadowed by a 
        disaster initiative out of the Vice President's office, 
        although it is relevant to note that the lower level, 
        interagency planning for more coordinated and strategic 
        domestic R&D yield approval from OMB of more than $100 million 
        in new support.

        --  Green Chemistry--This was a bit different as here we were 
        fortunate to have on staff someone who by his mid-30s was being 
        honored as the ``father of green chemistry,'' Paul Anastas, who 
        is now a professor at Yale. But here too, I think he would 
        agree, defining the importance of the problem and potential for 
        solutions came from the work of those in the field.

        --  International Technology Transfer--This group focused on 
        U.S. Government policies in an attempt to better ensure 
        consistency in the U.S. approach to international technology 
        transfer from its laboratories.

    Each of these initiatives, like the emerging infectious disease 
initiative, came from the relevant community, ``bottom up.'' Each of 
these initiatives also had some level of bipartisan support.
    There is also the example of the seed of the National 
Nanotechnology Initiative. This concept was first put forth by a group 
of scientists from various agencies in a meeting that I chaired on 
international cooperation in materials research. At the time there was 
no other NSTC activity dealing with materials science, so this was the 
one route available for agency research managers to share views. The 
scientists at the meeting, including Dr. Michael Roco from NSF, noted 
that there was growing informal, interagency interdisciplinary 
cooperation in nanotechnology enabled in part by new tools, but that 
there was no formal ability to coordinate and better connect this work. 
This seed from a discussion in the international context mushroomed 
into the eventual National Nanotechnology Initiative.

Regional and Bilateral Strategic Support

    CISET can also be used as a means of defining and coordinating U.S. 
interests in regional and bilateral forums. Regional forums such as the 
Asia Pacific Economic Cooperation (APEC) Forum, Organization of 
Economic Cooperation and Development (OECD), and Summit of Americas 
(SoA) can provide opportunities to advance U.S. interests in 
international S&T cooperation in multilateral settings. Similarly, 
CISET can facilitate the development of joint strategies of cooperation 
with key partners, which target the leveraging of key facilities and 
areas of expertise. One such bilateral strategy was developed with 
Japan, for example.

Lessons Learned

    CISET works well when there is a process for drawing upon the 
research community broadly to identify and assess opportunities, using 
its interagency forum to develop a government strategy, and calling on 
its leaders to bring about the necessary support to effectively address 
the policy. When CISET has struggled in the past, I believe that one 
reason was the lack of such an operationalized system.
    Just as the quality of U.S. science is built from the bottom up, 
advancing on the work of those who know well the frontiers, defining 
where the frontiers of S&T can be best advanced through international 
cooperation is effectively done drawing on this bottom-up web of 
expertise. Tapping the knowledge and capabilities of the agencies and 
their laboratories, universities and non-profit organizations, and 
industry are equally critical in identifying which challenges can be 
effectively advanced through international S&T.
    CISET should not rely on just the ideas of those at the top. When 
this happens, the options tend to shrink and the options more limited.
    A practical factor which seemed to affect CISET in the mid-1990s 
was an emphasis on working groups formed to support the bilateral 
priorities of the Vice President. The Vice President led several high 
priority bilateral initiatives intended to strengthen peaceful 
development and bilateral ties with such countries as Russia, China, 
Ukraine, South Africa, and Egypt. Supporting the S&T components of 
these initiatives was a substantial activity of CISET. Although a 
certainly worthy use of CISET's role, this shifted the focus of CISET 
away from broader issues-oriented work.

Question 3. Can CISET serve an important function absent additional 
funding for S&T cooperation? Does creation of CISET ensure active 
participation and support from the science agencies and from the 
Department of State? If not, what other steps must be taken to make 
CISET an effective coordinating body? Are any of those steps 
legislative?

Funding and Process

    Initiatives often require resources, therefore additional funds for 
S&T cooperation would certainly be of value in assessing options and 
executing strategies defined through CISET, particularly by 
accelerating the initial phases of assessment, planning and 
development.
    The State Department is chronically short of funding and virtually 
no funding support seemed to exist to organize discussions of issues 
and approaches. The S&T agencies are thus typically approached to 
support funding for any activities even at the earliest stages of 
discussion, but it wastes a good deal of time and effort in OSTP to 
explain to the right agency representative the reasons actions support 
their respective agency missions, and then for the agency to find 
appropriate accounts. Launching discussions and assessments of issues 
in a more timely manner would help all S&T agencies more effectively 
engage in strengthening the links between S&T and foreign policy.

Agency Participation

    One reason that agencies will participate in the NSTC process in 
general, including the CISET process, is because of the value in the 
overall budgeting process.
    A typical process for gaining additional funds is to have workshops 
or forums with governmental and non-governmental representatives to 
discuss and define challenges and solutions, much as one would explore 
new challenges in S&T in general. Funds for this step are typically 
very difficult to achieve as there are few if any line items in agency 
budgets for this purpose. Despite NIH's vast budget, for example, I 
found NIH to be the most difficult agency with which to work regarding 
workshop support for interagency, international priorities, due at 
least in part to a lack of appropriate accounts.
    Next is the interagency planning process to develop a strategy of 
action and to list the resources necessary to execute the actions. 
After multiple prioritization exercises, the strategy is submitted to 
the CISET and NSTC principals for review. If approved, the next step 
involves budget requests to OMB, agency by agency, which brings us to a 
point still 16 months away from getting budget if successful.
    From this point, each agency must articulate to OMB and then to 
Congress the value of the effort within the context of its own agency 
priorities. Here CISET can assist by defining the bigger picture within 
which the agency's contribution is an important part, and this seems 
appreciated by both entities. With both OMB and Congress, CISET can 
help to explain the necessity of various elements to achieve an overall 
government-wide goal.
    Regarding the State Department, staff members are quite vigilant 
about the department's role as the lead agency for U.S. Government 
foreign affairs. The Department is typically willing to have a 
representative participate in international S&T issues, with their main 
limitation being budget.

Other Steps

Designating a non-profit center or FFRDC. If enhanced support for 
international cooperation were available, the necessary bottom up 
process of identifying solutions and proposing paths forward through 
research, workshops and forums can be executed much more efficiently. 
Such a fund might be best managed in conjunction with a non-profit 
organization such as the Civilian Research and Development Foundation 
(CRDF) which has extensive experience executing cooperative programs 
abroad and can act quickly. Or, perhaps a Federally Funded Research and 
Development Center (FFRDC) might be formed at such an existing 
organization to provide for a closer administrative link to government 
priorities.

Clarify Mission and/or Oversight. Regarding other legislative change, 
Congress could amend authorizing legislation or oversight measures to 
explicitly include agency development and execution of international 
science and technology strategies as well as priority participation in 
CISET to ensure an effective U.S. Government-wide response.
    The U.S. Geological Survey has advanced such tools as Geographic 
Information Systems, valuable in a wide range of uses from agriculture 
to disaster mitigation to humanitarian relief, yet USGS is often 
hamstrung for directly supporting or engaging in international 
activities. Adjusting its mission statement would be helpful.
    If this is difficult for jurisdictional reasons, then perhaps the 
Committee, with its sole or shared jurisdiction on most government R&D 
programs can clarify that strategies to advance R&D for their agencies 
missions should be defined with a global scope, to leverage growing 
global assets.
    Furthermore, any oversight of R&D programs such as those called for 
through the Government Results and Performance Act (GPRA) might be 
amended to ensure that performance evaluations also include the 
considered use of international S&T.

Question 4. How else might OSTP and/or the science agencies play a 
greater role in bringing S&T to bear on foreign policy?

Focus and Authority in Leadership

    One challenge is ensuring energetic and focused leadership for 
CISET. In reviving CISET at the end of the Clinton Administration, the 
Director of OSTP, Neal Lane decided to co-chair this working group with 
the Under Secretary of State for Global Affairs, Frank Loy. The OSTP 
Director does not typically chair NSTC committees. However Dr. Lane 
made this decision recognizing that high level commitment would be 
needed to reenergize CISET in a timely manner and to gain the 
commitment of both higher level agency and department policy-makers as 
well as staff. This decision was key to successfully re-energizing 
CISET at the end of that administration.
    Under the Clinton Administration there were four associate 
directors of OSTP but five NSTC Committees. One Associate Director co-
chaired the Committee on National Security and CISET. This is not an 
impossible situation, but the reality is that any Associate Director 
has very limited time. Those who want to accomplish something in the 
few years of tenure at OSTP will be highly focused. Thus achieving the 
high level of attention needed can be a challenge.
    Congress does not provide for five Associate Directors. However, 
there may be other possibilities. The Director of OSTP could, for 
example, create a position of Deputy Director for International who, 
with appropriate staff, could work across all parts of OSTP and also 
run the CISET process. When building new issues with diverse 
constituencies, rank and authority are extremely important.

Better Integrating S&T into Decision-making Process

    There are some issues in which the S&T agencies might better assist 
with in-kind resources, or which could be aided by a center or FFRDC in 
this area. Examples would include dealing with:

        --  visa issues and foreign researchers,

        --  export controls, and

        --  international technology transfer.

    CISET should play a more active role in bringing the civilian S&T 
agencies and the diplomacy and security focused agencies such as the 
Departments of State, Homeland Security and Defense, closer 
operationally. Clear areas of possibility are visa approvals and export 
controls.
    Although the situation with visa approvals for foreign scientists 
is much improved over the post-911 period, there are still numerous 
stories of seemingly excessive delays. A major part of the reason is 
lack of staff and expertise in the approving agencies. The S&T agencies 
may be able to substantially facilitate this process by drawing on the 
wide range of experts in their networks. Some system that will enable a 
more expedited and informed review of the science and technology 
aspects of visa applications seems to be worthy of consideration.
    Regarding export controls, an ongoing concern of the academic 
science community is the lingering use of the ``sensitive but 
unclassified'' classification of academic research. The Bush 
Administration reaffirmed the position of the National Security 
Decision Directive 189 issued by the Reagan Administration in 1985, 
exempting basic academic research from this restriction, but stories of 
overly ambitious application still emerge.
    At an operational level, more classified export control review 
often occurs in a black box and may benefit from the input and analysis 
from a wider body of scientists. The dual-use export control list 
managed by the Department of Commerce is one that requires an ongoing 
understanding of the state of technology abroad for any restrictions to 
be effective. The munitions control list managed by the Departments of 
State and Defense might also benefit by enriching the set of evaluators 
to achieve for a more timely review of restrictions placed on research 
or commercial technologies.

Summary

    In summary, CISET can facilitate the effective planning and 
execution of international cooperation by ensuring agencies see this 
use of R&D as part of their mission, and by developing strategies to 
meet common missions through international S&T. CISET can offer a 
cross-governmental strategy that is coordinated in actions and budgets, 
which assists in gaining support from OMB and Congress.
    CISET benefits when ideas and analysis come from the bottom up, 
drawing on the large pool of expertise through the governmental and 
non-governmental sectors. CISET principals can provide the higher level 
leadership that is often critical when pursuing change.
    In order to strengthen CISET's contribution to international 
cooperation in R&D and its contribution to foreign policy, agencies 
missions and oversight could be adjusted to clarify this priority.
    Finally, in order to facilitate faster action, more thorough 
analysis of options, and the more considered integration of S&T and 
foreign policy, a center or FFRDC might be formed to bring together the 
many capabilities needed to address this complex but increasingly 
important issue area.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Biography for Gerald J. Hane
    Dr. Hane is Managing Director with the advisory firm, Q-Paradigm, 
where he focuses on venture innovation in the Asia Pacific. His work 
includes facilitating venture technology and investment partnerships 
and directly assisting venture companies in the areas of energy, 
biotechnology/medical devices, and communications. Clients include 
financial institutions, large corporations, and venture companies. He 
also consults with the U.S. Government and science and technology 
organizations in Asia regarding science and technology policy, venture 
businesses and venture capital.
    Prior to this work, Dr. Hane was the Assistant Director for 
International Strategy and Affairs at the White House Office of Science 
and Technology Policy (OSTP). Dr. Hane co-led with the Director the 
Centers for Disease Control the U.S. Government-wide effort to address 
emerging infectious diseases. He also oversaw international initiatives 
addressing such challenges as energy and environment, natural 
disasters, food and nutrition, water quality, counter-terrorism, and 
export controls. Dr. Hane was responsible for priority bilateral 
science and technology relations including China, India, Japan, Russia, 
Egypt, Mexico and South Africa, as well as multilateral relations with 
APEC, OECD, the G8 and Summit of the Americas.
    Before entering OSTP, Dr. Hane was a Professional Staff Member of 
the Committee on Science, Space, and Technology of the U.S. House of 
Representatives. There his responsibilities included clean 
technologies, advanced manufacturing technologies, medical 
technologies, defense dual-use technologies, and aviation and aerospace 
technologies. He has been a Visiting Researcher at the National 
Institute of Science and Technology Policy (NISTEP) of Japan's Science 
and Technology Agency, and has worked for the Pacific Northwest 
Laboratory of the Battelle Memorial Institute as a Research Engineer, 
specializing in international technology assessments and research and 
development planning. Dr. Hane received his Ph.D. in Political Economy 
and Government from Harvard University. His dissertation, supported by 
a Fulbright-Hays Grant for Dissertation Research Abroad, examined the 
management of innovation and the role of collaborative research and 
development activities in Japan. He has B.S. and M.S. degrees in 
Mechanical Engineering from Stanford University.


</pre></body></html>
